USCA11 Case: 20-12037

DptaHQxl: 05/06/2021

Page: 1 of 7

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12037
Non-Argument Calendar
D.C. Docket No. 6:I9-cv-01723-WWB-GJK

JESSICA GRAULAU,
Plaintiff-Appellant,
versus
CREDIT ONE BANK, N.A.,
a foreign corporation,
Defendant-Appellee.

Appeal from the United States District Court
for the Middle District of Florida
(May 6,2021)

Before LAGOA, BRASHER, and EDMONDSON, Circuit Judges.

Appendix A, Pett.App. 1a

USCA11 Case: 20-12037

D^olRI^d: (

PER CURIAM:
Plaintiff Jessica Graulau, proceeding prose,1 appeals the district court’s
order (1) dismissing Plaintiffs civil action against Defendant Credit One Bank,
N.A. (“Credit One”) and (2) referring Plaintiffs case to arbitration. In her
complaint, Plaintiff asserted against Credit One violations of the Telephone
Consumer Protection Act, 47 U.S.C. § 277 (“TCPA”), and of the Florida
Consumer Collection Practices Act, Fla. § 559.72 (“FCCPA”). No reversible error
has been shown; we affirm.
This appeal arises from alleged attempts by Credit One to collect Plaintiffs
consumer debt. Plaintiff says she — over a period of fifteen months -- received
thousands of robocalls from Credit One, despite having instructed Credit One’s
agents to stop calling her.
In January 2018, Plaintiff filed a counseled complaint against Credit One,
asserting violations of the TCPA and the FCCPA (“Graulau I”). The parties later
filed a “Joint Stipulation Dismissing and Referring Case to Arbitration.” In
pertinent part, the joint stipulation provided that “Plaintiff, through counsel,...
agrees this case is subject to arbitration pursuant to the cardholder agreement.”

We read liberally briefs filed by prose litigants. See Timson v. Sampson. 518 F.3d 870, 874
(11th Cir. 2008).
2

Appendix A, Pett.App. 2a

'USCA11 Case: 20-12037

Df&eRted:

The parties requested that the district court dismiss the case and refer the matter to
binding arbitration. On 10 April 2018, the district court entered an order referring
Graulaul to arbitration and dismissing the case.
Then, in September 2019, Plaintiff filed pro se the civil action underlying
this appeal. Plaintiff again asserted against Credit One claims for violation of the
TCPA and the FCCPA based on the same factual allegations asserted in Graulau I.
Plaintiff alleged that she had been unable to file an arbitration demand due to a
lack of financial resources.
Credit One moved to dismiss Plaintiff's complaint and to enforce the 10
April 2018 order entered in Graulau I.
A magistrate judge issued a report and recommendation (“R&R”),
recommending that the district court grant Credit One’s motion, refer Plaintiffs
claims to arbitration, and dismiss the case. The magistrate judge noted the parties’
joint stipulation in Graulau I that Plaintiffs claims against Credit One were subject
to binding arbitration. The magistrate judge then determined that Plaintiff had
failed to show that arbitration would be prohibitively expensive or that
enforcement of the arbitration agreement would preclude Plaintiff from effectively
vindicating her rights. Plaintiff filed no timely objections to the R&R.2
2 Generally speaking, a party that fails to object to the magistrate judge’s R&R waives the right
to challenge on appeal a district court’s order based on the unobjected-to factual and legal
3

Appendix A, Pett.App. 3a

USCA11 Case: 20-12037

Dfattoff^d: (

The district court adopted the R&R, granted Credit One’s motion, ordered
Plaintiff to “submit to arbitration in accordance with the Joint Stipulation,” and
dismissed the case.
We review de novo a district court’s order compelling arbitration. See
Emp’rs Ins, of Wausau v. Bright Metal Specialties. Inc.. 251 F.3d 1316,1321 (11th
Cir. 2001).
Through the Federal Arbitration Act, 9 U.S.C. § 1 et seq. (“FAA”), Congress
“declare[d] a national policy favoring arbitration of claims that parties contract to
settle in that manner.” See Burch v. P.J. Cheese. 861 F.3d 1338,1345 (11th Cir.
2017) (quotation omitted). We have said that this “strong federal preference for
arbitration of disputes ... must be enforced where possible.” See Musnick v. King
Motor Co.. 325 F.3d 1255,1258 (11th Cir. 2003). Among other things, the FAA
authorizes a district court “to issue an order compelling arbitration if there has been
a failure, neglect, or refusal to comply with an arbitration agreement.” Id. (citing 9
U.S.C. § 4).
In ruling on a motion to compel arbitration pursuant to section 4 of the FAA,
a district court follows a two-step inquiry. Klav v. PacifiCare Health Svs.. Inc..

conclusions. See 11th Cir. R. 3-1. That waiver rule does not apply in this case, however,
because the R&R never informed Plaintiff about the time for objecting and about the
consequences on appeal for failing to object. See id.
4

Appendix A, PettApp. 4a

USCA11 Case: 20-12037

D(fl©1Fg)3d: (

389 F.3d 1191,1200 (11th Cir. 2004). First, the district court must “determine
whether the parties agreed to arbitrate the dispute.” Id. If so, the district court
must then determine “whether ‘legal constraints external to the parties’ agreement
foreclosed arbitration.’” Id.
About the first step, that Plaintiff and Capital One agreed to arbitrate the
matters at issue in this case is clear. In Graulau I. the parties stipulated that
Plaintiff9s claims — claims identical to those asserted in this case — were subject to
binding arbitration under the applicable cardholder agreement.
Nevertheless, Plaintiff now contends that the arbitration agreement is
unenforceable for these reasons: (1) Credit One waived its right to arbitration;
(2) Plaintiff lacks the financial resources to pay the costs of arbitration; and (3)
Plaintiff’s claims are exempt from arbitration under 28 U.S.C. § 654(a) and Middle
District of Florida Local Rule 8.02(a). We are unpersuaded.
First, nothing evidences that Credit One waived its right to arbitration. To
establish waiver, a party must show two things: “(1) the party seeking arbitration
substantially participated in litigation to a point inconsistent with an intent to
arbitrate; and (2) that this participation resulted in prejudice to the opposing party.”
Burch, 861 F.3d at 1350. Never has Credit One engaged in substantial
participation in this litigation. To the contrary -- in both this case and in Graulau I
5

Appendix A, Pett.App. 5a

USCA11 Case: 20-12037

D(def^d

— Credit One’s conduct consisted only of efforts to enforce the arbitration
agreement.
Plaintiffs argument about the cost of arbitration also fails. An arbitration
agreement may be rendered unenforceable when arbitration would be prohibitively
expensive. See Green Tree Fin. Corp.-Ala. v. Randolph. 531 U.S. 79,90 (2000).
The party seeking to avoid arbitration based on cost bears the “burden of
establishing that enforcement of the agreement would preclude him from
effectively vindicating his federal statutory right in the arbitral foruih.” Musnick.
325 F.3d at 1259 (quotations and alterations omitted). To satisfy this burden, a
party “has an obligation to offer evidence of the amount of fees he is likely to
incur, as well as of his inability to pay those fees.” Id. at 1260.
Here, Plaintiff offered no specific evidence about the costs she might incur
in arbitration. Plaintiffs mere conclusory assertion that she lacks the financial
resources to pay for arbitration is not enough to invalidate the arbitration
agreement. See Musnick. 325 F.3d at 1260 (in deciding the enforceability of an
arbitration agreement’s fee-shifting provision, concluding a statement that plaintiff
would “be unable to pay” a potential award of attorney’s fees was speculative and
“wholly inadequate to establish that the arbitration would result in prohibitive costs
that force him to relinquish his claim under Title VII.”).
6

Appendix A, Pett.App. 6a

USCA11 Case: 20-12037

DjaM^d:

We also reject Plaintiffs arguments under 28 U.S.C. § 654 and the Middle
District of Florida’s local rules: provisions that are inapplicable to the FAA-based
arbitration agreement at issue in this case. See 28 U.S.C. § 651(e) (the statutory
provisions in 28 U.S.C. §§ 651 et seq. “shall not affect title 9, United States
Code.”); M.D. Fla. Local Rule 8.01(a) (repealed 1 February 2021) (implementing
rules in accord with 28 U.S.C. §§ 651-58).
Plaintiff has failed to show that the parties’ arbitration agreement is invalid
or unenforceable. We affirm the district court’s order dismissing the case and
referring the case to arbitration.
AFFIRMED.

7

Appendix A, Pett.App. 7a

USCA11 Case: 20-12037

D(St©1F2l)3cl:

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 20-12037
District Court Docket No.
6:19-cv-01723-WWB-GJK
JESSICA GRAULAU,
Plaintiff - Appellant,
versus
CREDIT ONE BANK, N. A.,
a foreign corporation,
Defendant - Appellee

Appeal from the United States District Court for the
Middle District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: May 06, 2021
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

Appendix B, Pett.App. 8a
ISSUED AS MANDATE 06/04/2021

Case 6:19-cv-01723-WWEk_J K

Document 27

Fil

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
JESSICA GRAULAU
Plaintiff,

v.

Case No: 6:19-cv-1723-Orl-78GJK

CREDIT ONE BANK, N.A.
Defendant.
ORDER
THIS CAUSE is before the Court on Defendant's Motion to Dismiss and Enforce
Order Dismissing and Referring Case to Arbitration (Doc. 9). United States Magistrate
Judge David A. Baker issued a Report and Recommendation (Doc. 15), in which he
recommends that the Motion be granted.
After a de novo review of the record, and noting that no objections1 were timely
filed, the Court agrees entirely with the analysis in the Report and Recommendation.
Therefore, it is ORDERED and ADJUDGED as follows:

1

In lieu of an objection, Plaintiff filed a Notice of Appeal (Doc. 16), which purports
to appeal the Report and Recommendation to the Eleventh Circuit. However, it is wellsettled that a Report and Recommendation is not a final and appealable order. See PerezPriego v. Alachua Cty. Clerk of Court, 148 F.3d 1272, 1273 (11th Cir. 1998). Therefore,
this Court retains jurisdiction over the matter. See Brown v. Glob. Emp’t Sols., Inc., 236
F. Supp. 3d 1299, 1300 n.1 (N.D. Ga. 2017) (u\J]he filing of an appeal from a
nonappealable order does not deprive [the district] court of jurisdiction.”).
On May 22, 2020, Plaintiff also filed a Motion Directed to Assigned District Judge
to Request Vacant of Magistrate Judge (Doc. 26), wherein she asks this Court to reject
the Report and Recommendation. To the extent that Plaintiff intended the motion to act
as an objection to the Report and Recommendation, it was not timely. See 28 U.S.C.
§ 636(b).
___ ,

Appendix C, Pett.App. 9a

Case 6:19-cv-01723-WWb^JK

Document 27

Fil

1. The Report and Recommendation (Doc. 15), is ADOPTED and
CONFIRMED and made a part of this Order.
2. Defendant’s Motion to Dismiss and Enforce Order Dismissing and
Referring Case to Arbitration (Doc. 9) is GRANTED. Plaintiff shall submit
to arbitration in accordance with the Joint Stipulation.
3. The Clerk is directed to terminate all pending motions and close this
case.
DONE AND ORDERED in Orlando, Florida on May 28, 2020.

Copies furnished to:
Counsel of Record
Unrepresented Party

Appendix C, Pett.App. 10a

V

>

United States District Court
Middle District Of Florida
Orlando Division
JESSICA GRAULAU,
Plaintiff,
v.

Case No: 6:19-cv-1723-Orl-78GJK

CREDIT ONE BANK, N.A.,
Defendant.

Report and Recommendation1
This cause came on for consideration without oral argument on the following motion:
defendant, credit one BANK, N.A.’S motion to
^DISMISS AND ENFORCE ORDER DISMISSING^ND,^

^

REFERRING CASE TO ARBITRATION AND
/ INCORPORATED MEMORXNDUM OF LAW (Doc. No. 9) *

<*

‘FILED:

, November 5,2019

1 i

THEREON it is RECOMMENDED that the Motion be GRANTED.

L

BACKGROUND.

On September 5, 2019, Plaintiff filed a Complaint against Defendant for violations of the
Telephone Consumer Protection Act, 47 U.S.C. § 227 et seq. and Florida Consumer Collection
Practices Act, Fla. Stat. § 559.72. Doc. No. 1. In her Complaint, Plaintiff references a related civil
action in the Middle District of Florida, Orlando Division: 6:18-cv-106-OrI-ACC-DCI. Id at 3.
The Complaint alleges Plaintiff signed an account agreement for a credit card with Defendant, that
the account agreement Plaintiff entered with Defendant incorporated ait arbitration j?greprfienj>iind

Magistrate Judge David A. Baker substituting for Magistrate Judge Gregory J. Kelly.

Appendix D, Pett.App. 11a

that Plaintiff sent a notfce via-omail in^Iay 2013 “refusing arbitration for Account agreement.”
Id. at 5. Plaintiff alleges that between May 7, 2013 and January 31, 2017, she received several
thousand phone calls from an automatic dialing system utilized by Defendant to collect
on
Plaintiffs account. Id, at 6. Plaintiff alleges that after filing the previous action in this Court, the
parties entered a joint stipulation for voluntary dismissal without prejudice and referral to
arbitration. Id. at 9. Atthetime, Plaintiff was represented by counsel. Id. On April 10,2018
, an
order was entered dismissing4he case and referring it to arbitration. Id. Plaintiff alleges she has
been unable to file an arbitration demand due to lack of financial resources and Defendant has not
taken any action to comply with the Court’s referral to arbitration. Id. at 10.
On November 5,2019, Defendant filed a Motion to Dismiss and Enforce Order Dismissing
and Referring Case to Arbitration and Incorporated Memorandum of Law (“Motion to Dismiss”).
Doc. No. 9. Essentially, Defendant argues that Plaintiff is bound by her previous stipulation that
this matter is subject to arbitration and the Court no longer has jurisdiction to adjudicate it on that
basis. Id. at 2-3. Defendant asks that this matter be dismissed and the parties’ stipulation and the
Court’s earlier order enforced. Id.
On November 12, 2019, Plaintiff filed a Motion to Strike Defendant’s Motion to Dismiss
(the Response”).2 Doc. No. 10. Plaintiff acknowledges the stipulation but maintains she is
entitled to pursue this cause of action in spite of the Court’s previous order referring this claim to
arbitration. Doc. No. 10 at 3-4.

n.

APPLICABLE LAW.

The Federal Arbitration Act (“FAA”) provides that a written arbitration agreement in any
contract involving commerce “shall be valid, irrevocable, and enforceable, save upon such grounds.

2 The Court treats the Motion to Strike as a response to the Motion to Dismiss. Doc. No. 13.
-2-

Appendix D, Pett.App. 12a

.w

- as exist at la^or in equity for the revocation of any contract.” 9 U.S.C. § 2. The existence of a
valid arbitration agreement is a threshold issue for determining the propriety of a motion to compel
arbitration. Klay v. All Defendants, 389 F.3d 1191, 1200 (11th Cir. 2004). If the Court finds that
no arbitration agreement exists, the Court “cannot compel the parties to settle their dispute in an
arbitral forum.” Id. Thus, when a party moves to compel arbitration, the FAA states that “[t]he
court shall hear the parties, and upon being satisfied that the making of the agreement for
arbitration or the failure to comply-therewith is not in issue ... shall make an order directing the
parties to proceed to arbitration in accordance with the terms of the agreement.” 9 U.S.C. § 4
(emphasis added). However, “[i]f the making of the arbitration agreement... be in issue, the court
shall proceed summarily, to toa. ftfel -thereof.” Id. Furthermore, if the party seeking to avoid
arbitration has not requested a jury triage to the issue of whether an arbitration agreement has
been made, “the court shall hear and determine such issue.” Id.
A motion to compel arbitration is generally treated as a motion to dismiss for subject
matterjurisdiction pursuant to Federal Rule of Civil Procedure 12(b)(1). Owingsv. T-Mobile USA,
Inc., 978 F. Supp. 2d 1215, 1222 (M.D. Fla. 2013).

Motions to dismiss based on subject matter

jurisdiction come in two forms, facial attacks and factual attacks. Lawrence v. Dunbar, 919 F.2d
1525, 1528-29 (11th Cir. 1990). A facial attack looks to the four corners of the complaint to
consider whether subject matterjurisdiction is sufficiently alleged. Id. at 1529. The allegatio ns.
of the Complaint are accepted as true for purposes of the motion to dismiss. Id. A factual attack
relies on matters outside the pleadings, such as testimony or affidavits. Id. When a factual attack
is employed, “no presumptive truthfulness attaches to plaintiffs allegations, and the existence of
disputed material facts will not preclude the trial court for evaluating for itself the merits of
jurisdictional claims.” Id. (quoting Williamson v. Tucker, 645 F.2d 404, 412-13 (5th Cir.), cert.

-3-

Appendix D, Pett.App. 13a

denied, 454 U.S. 897 (1981)). Generally, motions to compel arbitration are treated as a factual
attack because they require reliance on an extrinsic document which deprives the court of its power
to adjudicate a plaintiffs claim. Mason v. Coastal Credit, LLC, No. 3:18-cv-835, 2018 WL
6620684, at *5 (M.D. Fla. Nov. 16,2018).
HI.

ANALYSIS.

Defendant seeks to have this matter referred to arbitration again based on the parties’ Joint
Stipulation in the earlier litigation and-the Court’s previous order referring the matter to arbitration.
The Joint Stipulation, filed with the Court, provides that: “Plaintiff, through counsel, . . . agrees
this case is subject to arbitration pursuant to the cardholder agreement.... The parties, therefore,
>

stipulate to allow the Court to dismiss this case in its entirety and refer the entire matter to binding
^arbitration.” Jessica Graulau v. Credit One Bank, N.A., No. 6:18-cv-106, Doc. Nos. 11 (Apr. 9,
2018).
-

Despite having previously stipulated to binding arbitration and the dismissal of her case,

• Plaintiff now claims she cannot afford arbitration and should be permitted to maintain her case in
federaJ e&uri. Doc. No. F0 at 3. Plaintiff alleges in her Complajnt'tftat the American Arbitration
Association dpefrtiSt waive fees and costs for indigent claimants but, in her response to the Motion,
Plaintiff fails to provide any detail as to the expenses she may incur or to make any substantive
showing that arbitration is prohibitively expensive in this case. Hudson v. P.I.P., Inc., No. 1911004, 2019 U.S. App. LEXIS 34843, at *5 (11th Cir. Nov. 22, 2019) (“A party seeking to avoid
arbitration . . . has the burden of establishing that enforcement of the agreement would preclude
him from effectively vindicating his federal statutory right in the arbitral forum.”) (internal
citations omitted); Green Tree Fin. Corp.-Ala. v. Randolph, 531 U.S. 79, 90 (2000); see Anders
.V. Hometown Mortg. Servs., 346 F.3d 1024, 1028 (11th Cir. 2003) (party bears the burden of

-4-

Appendix D, Pett.App. 14a

showing the likelihood of incurring such costs and the inability to pay to such costs); Uusnick v.
King Motor Co., 325 F.3d 1255, 1260 (11th Cir. 2003) (party has obligation to offer evidence of
the amount of fees he is likely to incur, as well as of hi's inability to pay those fees). Plaintiff has
not demonstrated that the enforcement of the agreement would preclude her from effectively
vindicating her rights, it is even unclear which party is responsible for the costs of arbitration under
the agreement as Plaintiffhas failed to include the entire arbitration agreement. Doc. No. 1-1 at 1.
The Court finds that Plaintiff^ with the assistance-of counsel, stipulated that this claim
should be referred to binding arbitration and the Court ordered the matter referred to arbitration.
Plaintiffhas failed to demonstrate there is any reason not to enforce the earlier stipulation and
Court order. The Court recommends that the Motion be granted, that Plaintiffs claim be refen-ed
to arbitration, that this case be dismissed, and that this matter be closed on the Court’s docket.
Accordingly, it is RECOMMENDED that the Motion (Doc. No. 9) be GRANTED as
follows:
1.

The case be REFERRED to arbitration;

2.

The case be DISMISSED; and

3.

The Clerk be directed to CLOSE the file.

RECOMMENDED in Orlando, Florida, on February 5, 2020.

. DAVID A. BAKER
UNITED STATES MAGISTRATE JUDGE

Copies furnished to:
Counsel of Record
Unrepresented Parties

-5-

Appendix D, Pett.App. 15a

Case: 2W-12037

Ddte Filed: 08/S

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12037-J
JESSICA GRAULAU,
Plaintiff-Appellant,
versus
CREDIT ONE BANK, N.A.,
a foreign corporation,
Defendant-Appellee.

Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Jessica Graulau seeks leave to proceed in forma paut>erisYtTFP”1 to appeal the
District Court’s dismissal of her pro se complaint for lack of subject matter
jurisdiction.
In 2018, Ms. Graulau filed a counseled civil complaint in the Middle District
of Florida against Credit One Bank (“Credit One”), alleging violations of the
Telephone Consumer Protection Act (“TCPA”), 47 U.S.C. § 227 et sea., and the
Florida Consumer Collection Practices Act (“FCCPA”), Fla. Stat. Ann. § 559.55 et
Appendix E, Pett.App. 16a

Case: ib-12037

Date Filed: 08/£

seq. Ms. Graulau’s complaint alleged that: (1) she signed an account agreement for
a credit card with Credit One, which incorporated an arbitration agreement; and
(2) between May 2013 and Januaiy 2017, she received several thousand phone calls
from an automatic dialing system utilized by Credit One to collect on her account,
in violation of the TCPA and FCCPA. In April 2018, the parties entered into a joint
stipulation, in which Ms. Graulau agreed that the case was “subject to arbitration
pursuant to the cardholder agreement,” and both parties stipulated to allowing the
court to “dismiss the case in its entirety and refer the entire matter to binding
arbitration.” Pursuant to the joint stipulation, the District Court entered an order
dismissing the case and referring the matter to arbitration.
In September 2019, Ms. Graulau filed a pro se complaint against/CapitalOne,
reiterating the same TCPA and FCCPA claims as her previous complaint Ms.
Graulau noted that she previously filed a similar action, which had been dismissed
without prejudice after the parties entered into the joint stipulation. However, she
alleged that she had been unable to file an arbitration demand due to lack of financial
resources, and that Credit One had not taken any action to comply with the District
Court’s arbitration referral.
Capital One filed a motion to dismiss Ms. Graulau’s 2019 complaint, arguing
that it sought to sidestep the cpprt’s order from the previous action referring this
matter to arbitration. Capital,One requested that the District Court dismiss the
2

Appendix E, Pett.App. 17a

Case: 20-12037

Date Filed: 08/25/

complaint and enforce the joint stipulation compelling arbitration. Ms. Graulau filed
a response, asserting that she had made reasonable efforts to arbitrate her claim, but
was unable to find new legal representation and lacked the financial resources to pay
the arbitration fees.
A magistrate iudee entered a report and recommendation (“R&R”),
recommending that Capital One's dismissal motion be granted. The R&R noted
that, in the joint stipulation, Ms. Graulau agreed, through her counsel, to dismiss the
case in its entirety and refer it to arbitration. The R&R concluded that Ms. Graulau
failed to allege or show that arbitration would be prohibitively expensive, or that
there was any reason not to enforce the joint stipulation.
In lieu of filing objections to the R&R, Ms. Graulau filed a notice of appeal,
which purported to appeal the R&R. After the time to file objections, expired, the
District Court entered an order adopting the R&R, granting/Capital'One’s dismissal
motion, and dismissing Ms. Graulau’s instant complaint
Ms. Graulau filed a notice of appeal, listing the District Court's order adopting
the R&R and dismissing her prose complaint. She then filed a motion in the District
Court for leave to proceed in forma pauperis (“IFP") on appeal, which the District
Court denied. Ms. Graulau now moves this Court for leave to proceed IFP on appeal.

3
Appendix E, Pett.App. 18a
V...

Case: 2V12037

Date Filed: 08y

Ms. Graulau has submitted an amended affidavit alleging poverty, which is
accepted as true. See Martinez v. Kristi Kleaners. Inc,. 364 F,3d 1305, 1307 (11th
Cir. 2004). Because she seeks leave to proceed IFP, the appeal is subject to a
frivolity determination. “ [A]n action is frivolous if it is without arguable merit either
in law or feet.” Napier v. Preslicka. 314 F.3d 528,531 (11th Cir. 2002) (quotation
omitted).
Ms. Graulau’s appeal is not frivolous. Her complaint alleged that arbitration
was prohibitively expensive for her because she was indigent. She attached an
affidavit from a Credit One employee stating that Ms. Graulau would be responsible
for paying “all charges incurred in accordance with... the Arbitration Agreement.”
She also submitted an affidavit showing that she had no assets and her sole source
of income was disability benefits.
When “a party seeks to invalidate an arbitration agreement on the ground that
arbitration would be prohibitively expensive, that party bears the burden of showing
the likelihood of incurring such costs.” Green Tree Fin. Corp.-Ala. v. Randolph.
531 U.S. 79,92,121 S. Ct 513,522 (2000). This Court has held that the invalidation
of an arbitration agreement as prohibitively expensive must be assessed on a “caseby-case” basis. Musnick v. King Motor Co. of Fort Lauderdale, 325 F.3d 1255,
1259 (11th Cir. 2003).

4

Appendix E, Pett.App. 19a

Case: 20-12037

Date Filed: 08/2*

Liberally construing Ms. Graulau’s pro se filings, she has a non-frivolous
argument that her arbitration agreement is unenforceable because arbitration would
be prohibitively expensive for her.
Ms. Graulau’s motion for leave to proceed IFP is thus GRANTED.

TED STATES CIRCUIT JUDGE

5
Appendix E, Pett.App. 20a

General Docket
United States Court of Appeals for the Eleventh Circuit
Docketed: 06/03/2020
Termed: 05/06/2021

Court of Appeals Docket #: 20-12037
Nature of Suit: 3890 Other Statutory Actions
Jessica Graulau v. Credit One Bank, N.A.
Appeal From: Middle District of Florida
Fee Status: IFP Granted
Case Type Information:
1) Private Civil
2) Federal Question
3)Originating Court Information:
District: 113A-6 : 6:19-cv-01723-WWB-GJK
Civil Proceeding: Wendy W. Berger, U.S. District Judge
Secondary Judge: David A. Baker, U.S. Magistrate Judge
Date Filed: 09/05/2019
Date NOA Filed:

06/02/2020
Prior Cases:
None
Current Cases:
None

i

JESSICA GRAULAU
Plaintiff-Appellant

Jessica Graulau
Direct: 407-721-6303
[NTC Pro Se]
PO BOX 721037
ORLANDO, FL 32872

versus
CREDIT ONE BANK, N.A., a foreign corporation

Michael Schuette
Defendant - Appellee Direct: 813-890-2472
[COR LD NTC Retained]
Sessions Israel & Shartle, LLC
Firm: 813-890-2460
3350 BUSCHWOOD PARK DR STE 195
TAMPA, FL 33618
Dayle Marie Van Hoose
Direct: 813-890-2463
[COR LD NTC Retained]
Sessions Israel & Shartle, LLC
Firm: 813-890-2460
3350 BUSCHWOOD PARK DR STE 195
TAMPA, FL 33618

Appendix F, Pett.App. 21a

JESSICA GRAULAU
Plaintiff - Appellant,
versus
CREDIT ONE BANK, N.A.,
a foreign corporation,
Defendant - Appellee

i
i

Appendix F, Pett.App. 22a

06/03/2020 □ g
6 pg, 312.57 KB

06/04/2020

Q y
7 pg, 1.39 MB

06/04/2020

Q |1|
2 pg, 693.54 KB

06/05/2020 □ g
4 pg. 620.71 KB

06/17/2020

Q g
1 pg. 65.19 KB

06/17/2020 Q g
1 pg. 65.91 KB

06/17/2020 Q g
3 pg, 101’.3 KB

06/17/2020

Q g
11 pg, 1.22 MB

06/18/2020

□ g
1 pg, 14.56 KB

07/09/2020 Q g
3 pg, 48.66 KB

07/20/2020

Q |g
12 pg. 2.9 MB

08/25/2020

Q g
5 pg, 284.37 KB

08/25/2020

Q g
2 pg. 16.54 KB

08/26/2020

□ g
2pg, 312.41 KB

08/26/2020

Q g
3 pg, 683.89 KB

09/17/2020 □ g
1 pg, 51.19 KB

10/01/2020 Q g
23 pg, 354.98 KB

CIVIL APPEAL DOCKETED. Notice of appeal filed by Appellant Jessica Graulau on 06/02/2020. Fee
Status: IFP Pending. USDC motion pending: MOTION to Appeal In Forma Pauperis. No hearings to be
transcribed. Awaiting Appellant's Certificate of Interested Persons due on or before 06/17/2020 as to
Appellant Jessica Graulau. Awaiting Appellee’s Certificate of Interested Persons due on or before
07/01/2020 as to Appellee Credit One Bank, N.A. [Entered: 06/04/2020 09:52 AM]
USDC MOTION for leave to proceed in forma pauperis as to Appellant Jessica Graulau was filed on
06/02/2020. Docket Entry 29. [Entered: 06/04/2020 09:56 AM]
TRANSCRIPT INFORMATION form filed by Party Jessica Graulau. No hearings. [Entered: 06/04/2020
09:56 AM]
TRANSCRIPT INFORMATION form filed by Party Jessica Graulau. No hearings. [Entered: 06/09/2020
08:35 AM]
APPEARANCE of Counsel Form filed by Dayle Marie Van Hoose for Credit One Bank, N.A.. [20-12037]
(ECF: Dayle Van Hoose) [Entered: 06/17/2020 03:21 PM]
APPEARANCE of Counsel Form filed by Michael Schuette for Credit One Bank, N.A.. [20-12037] (ECF:
Michael Schuette) [Entered: 06/17/2020 03:25 PM]
Certificate of Interested Persons and Corporate Disclosure Statement filed by Attorney Michael Schuette
for Appellee Credit One Bank, N.A.. On the same day the CIP is served, the party filing it must also
complete the court's web-based stock ticker symbol certificate at the link here
http://www.ca11.uscourts.gov/web-based-cip or on the court's website. See 11th Cir. R. 26.1-2(b). [2012037] (ECF: Michael Schuette) [Entered: 06/17/2020 03:29 PM]
Appellant's Certificate of Interested Persons and Corporate Disclosure Statement filed by Appellant Jessica
Graulau. [Entered: 06/18/2020 02:14 PM]
NOTICE OF CIP FILING DEFICIENCY to Jessica Graulau. You are receiving this notice because you have
not completed the Certificate of Interested Persons (CIP). Failure to comply with 11th Cir. Rules 26.1-1
through 26.1-4 may result in dismissal of the case or appeal under 11th Cir. R. 42-1 (b), return of deficient
documents without action, or other sanctions on counsel, the party, or both. [Entered: 06/18/2020 08:52
AM]
USDC order denying IFP as to Appellant Jessica Graulau was filed on 07/08/2020. Docket Entry 33.
[Entered: 07/09/2020 11:03 AM]
MOTION to proceed IFP filed by Appellant Jessica Graulau. Opposition to Motion is Unknown [9143810-1]
[Entered: 07/22/2020 04:27 PM]
ORDER: Motion to proceed in forma pauperis filed by Appellant Jessica Graulau is GRANTED. [91438102] BBM [Entered: 08/25/2020 04:42 PM]
Briefing Notice issued to Appellant Jessica Graulau. The appellant's brief is due on or before 10/05/2020.
The appendix is due no later than 7 days from the filing of the appellant's brief. [Entered: 08/25/2020 04:44
PM]
"‘Docketing errorMOTION Allows the Appellant's Appeal be heard on the onginal record and dispense
with the appendix due to Appellant is a pro se proceedings as pauper, filed by Jessica Graulau. Opposition
to Motion is Unknown. [9172982-1] [20-12037]—[Edited 08/26/2020 by JC] (ECF: Jessica Graulau)
[Entered: 08/26/2020 03:14 PM]
MOTION Appeal from original record and dispense with the appendix, filed by Jessica Graulau. Opposition
to Motion is Unknown. [9173044-1] [20-12037] (ECF: Jessica Graulau) [Entered: 08/26/2020 03:30 PM]
ORDER: Appellant’s “Motion to Appeal from Original Record and Dispense with the Appendix" is
GRANTED. 19173044-21 CRW [Entered: 09/17/2020 10:03 AM]
Appellant’s brief filed by Jessica Graulau. [20-12037] (ECF: Jessica Graulau) [Entered: 10/01/2020 03:10
PM]

10/02/2020

Q

Received paper copies of EBrief filed by Appellant Jessica Graulau. [Entered: 10/06/2020 12:38 PM]

10/05/2020

Q

Received THREE ADDITIONAL paper copies of EBrief filed by Appellant Jessica Graulau. [Entered:
10/09/2020 12:44 PM]

10/23/2020 Q

Over the phone extension granted by clerk as to Attorney Michael Schuette for Appellee Credit One Bank,
N.A.. Appellee's Brief due on 11/30/2020 as to Appellee Credit One Bank, N.A... [Entered: 10/23/2020
10:28 AM]

11/04/2020

ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R. 42-2(c), this appeal is DISMISSED for want of
prosecution because the appellant Jessica Graulau failed to file an appendix within the time fixed by the
rules [Entered: 11/04/2020 03:29 PM]

Q g
2 pg, 16.97 KB

Appendix F, Pett.App. 23a

11/05/2020

Q g]
1 pg, 14.26 KB

11/05/2020 □ g
2 pg, 16.85 KB

11/10/2020 □ 0
8 pg, 353.38 KB

12/07/2020 □ H
21 pg, 245.61 KB

Appeal clerically reinstated as to Appellant Jessica Graulau because appeal was erroneously dismissed on
11/04/2020. [Entered: 11/05/2020 10:19 AM]
Briefing Notice issued to Appellee Credit One Bank, N.A.. Appellee’s brief is due on or before 12/07/2020,
with the supplemental appendix, if any, due 7 days later. [Entered: 11/05/2020 10:30 AM]
MOTION to vacate extension of time to file answer brief filed by Jessica Graulau. Opposition to Motion is
Unknown. [9235123-1] [20-12037] (ECF: Jessica Graulau) [Entered: 11/10/2020 05:40 PM]
Appellee's Brief filed by Appellee Credit One Bank, N.A.. [20-12037] (ECF: Michael Schuette) [Entered:
12/07/2020 10:51 AM]

12/07/2020 Q

Received paper copies of EBrief filed by Appellee Credit One Bank, N.A.. [Entered: 12/11/2020 12:17 PM]

12/10/2020 Q g

ORDER: Appellant’s “Motion Directed to the Court Requesting Vacate Extension of Time to File Answer
Brief is DENIED AS MOOT. Appellant’s reply brief is due by January 11,2021.19235123-21 RJL (See
attached order for complete text) [Entered: 12/10/2020 11:14 AM]

1 pg, 61.24 KB

12/14/2020 Q g
103 pg, 8.16 MB

Supplemental Appendix [1 VOLUMES] filed by Appellee Credit One Bank, N.A.. [20-12037] (ECF: Michael
Schuette) [Entered: 12/14/2020 12:25 PM]

12/14/2020 □

Received paper copies of EAppendix filed by Appellee Credit One Bank, N.A.. 1 VOLUMES - 2 COPIES
[Entered: 12/18/2020 09:28 AM]

12/18/2020 Q g

MOTION to strike Appellee's Appendix filed by Jessica Graulau. Opposition to Motion is Unknown.
[9264547-1] [20-12037] (ECF: Jessica Graulau) [Entered: 12/18/2020 03:01 PM]

8 pg. 285.57 KB

12/23/2020 Q

Over the phone extension granted by clerk as to Attorney Michael Schuette for Appellee Credit One Bank,
N.A.. Updated Awaiting Response to Motion. Due on 01/08/2021 as to Appellee Credit One Bank, N.A..
[Entered: 12/23/2020 08:35 AM]

12/31/2020 Q g

Reply Brief filed by Appellant Jessica Graulau. [20-12037] (ECF: Jessica Graulau) [Entered: 12/31/2020

31 pg, 413.83 KB

01/06/2021
01/08/2021

Q

Received paper copies of EBrief filed by Appellant Jessica Graulau. [Entered: 01/08/2021 11:17 AM]

Qg

RESPONSE to Motion filed by Appellant Jessica Graulau f9264547-21 filed by Attorney Michael Schuette
for Appellee Credit One Bank, N.A.. [20-12037] (ECF: Michael Schuette) [Entered: 01/08/2021 11:32 AM]

5 pg, 113.52 KB

01/19/2021

Qg
1 pg, 13174 KB

05/06/2021

07:14 AM]

Qg

ORDER: Appellant's "Motion Directed to the Court to Strike Appendix of Appellee" is DENIED. [9264547-2]
AJ (See attached order for complete text) [Entered: 01/19/2021 02:13 PM]
Judgment entered as to Appellant Jessica Graulau. [Entered: 05/06/2021 12:01 PM]

1 pg, 81.92 KB

05/06/2021

Qg
9 pg, 177.65 KB

06/04/2021

Qg

Opinion issued by court as to Appellant Jessica Graulau. Decision: Affirmed. Opinion type: Non-Published.
Opinion method: Per Curiam. The opinion is also available through the Court's Opinions page at this link
http://www.ca11 .uscourts-aov/ooinions. [Entered: 05/06/2021 12:04 PM]
Mandate issued as to Appellant Jessica Graulau. [Entered: 06/04/2021 11:10 AM]

2 pg, 722.94 KB

Appendix F, Pett.App. 24a

Clear All
® Documents and Docket Summary
O Documents Only
D Include Page Numbers
Selected Pages: I0
Selected Size: |0 KB
Totals reflect accessible documents only and do not include unauthorized restricted documents.
View Selected

PACER Service Center
Transaction Receipt
07/28/2021 23:45:34
PACER Login:

Graulaj7

Client Code:

Description:

Docket Report (filtered)

Search Criteria:

20-12037

Billable Pages:

3

Cost:

0.30

Appendix F, Pett.App. 25a

Query

Reports

Utilities

Help

Log Out

CLOSED

U.S. District Court
Middle District of Florida (Orlando)
CIVIL DOCKET FOR CASE #: 6:19-cv-01723-WWB-GJK
Graulau v. Credit One Bank, N.A.
Assigned to: Judge Wendy W. Berger
Referred to: Magistrate Judge Gregory J. Kelly
Case in other court: 11th Circuit, 20-12037
Cause: Restrictions on Use of Telephone Equipment

Date Filed: 09/05/2019
Date Terminated: 05/29/2020
Jury Demand: Plaintiff
Nature of Suit: 890 Other Statutory Actions
Jurisdiction: Federal Question

Plaintiff
Jessica Graulau

represented by Jessica Graulau
P.O. Box 721037
Orlando, FL 32872
407/721-6303
PROSE

V.

Defendant
Credit One Bank, N.A.
a foreign corporation

represented by Dayle Marie Van Hoose
Sessions, Israel & Shartle LLC
3350 Buschwood Park Dr Ste 195
Tampa, FL 33618-4317
813-440-5327
Fax: 877-334-0661
Email: dvanhoose@sessions.legal
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Michael Schuette
Sessions, Israel & Shartle LLC
3350 Buschwood Park Dr. Ste 195
Tampa, FL 33618-4317
813-890-2460
Email: mschuette@sessions.legal
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Date Filed

#

Docket Text

09/05/2019

I

COMPLAINT against Credit One Bank, N.A. with Jury Demand filed by Jessica Graulau.
(Attachments: # I Exhibits)(MAA) (Entered: 09/06/2019)

09/05/2019

2

MOTION for Leave to Proceed in forma pauperis by Jessica Graulau. (Attachments: # 1
Application)(MAA) Motions referred.to Magistrate Judee Greeorv J. Kelly. ("Entered:
Appendix G, Pett.App. 26a

09/06/2019)
09/09/2019

1

09/13/2019

4 RELATED CASE ORDER AND NOTICE of designation under Local Rule 3.05 track 2. Notice of pendency of other actions due by 9/27/2019. Signed by Deputy
Clerk on 9/13/2019. (copy mailed)(AKC) (Entered: 09/13/2019)

09/13/2019

Sl INTERESTED PERSONS ORDER. Certificate of interested persons and corporate
disclosure statement due by 9/27/2019. Signed by Judge Wendy W. Berger on
9/13/2019. (copy mailed)(AKC) (Entered: 09/13/2019)

09/20/2019

FILING FEES paid by Jessica Graulau (Filing fee $400.00 receipt number ORL085619)
(DMA) (Entered: 09/20/2019)

ORDER denying 2 Motion for Leave to Proceed in forma pauperis. Signed by
Magistrate Judge Gregory J. Kelly on 9/9/2019. (MB) (Entered: 09/09/2019)

09/20/2019

6

SUMMONS issued as to Credit One Bank, N.A. (BIA) (Entered: 09/20/2019)

10/09/2019

7

CERTIFICATE of interested persons and corporate disclosure statement re 5 Interested
persons order by Jessica Graulau. (BIA) (Entered: 10/10/2019)

10/09/2019

&

NOTICE of pendency of related cases re 4 Related case order and track 2 notice per Local
Rule 1.04(d) by Jessica Graulau. Related case(s): yes (BIA) (Entered: 10/10/2019)

11/05/2019

£

MOTION to Dismiss Complaint filed by plaintiff and Enforce Court Order Dismissing and
Referring Claims to Arbitration by Credit One Bank, N.A.. (Schuette, Michael) (Entered:
11/05/2019)

11/12/2019

1G (treat as a response) MOTION to Strike £ Defendant's MOTION to Dismiss Complaint
filed by Jessica Graulau. (BIA) Motions referred to Magistrate Judge Gregory J. Kelly.
Modified on 11/13/2019 (MEJ). Modified on 12/10/2019 (LAK). (Entered: 11/12/2019)

11/22/2019

11

RETURN of service executed on 10/17/2019 by Jessica Graulau as to Credit One Bank,
N.A. (BIA) (Entered: 11/25/2019)

11/26/2019

12

RESPONSE in Opposition re 10 MOTION to Strike Motion to Dismiss Complaint filed by
Credit One Bank, N.A. (Schuette, Michael) Modified on 11/27/2019 (MEJ). (Entered:
11/26/2019)

12/10/2019

13

ORDER terminating 10 Motion to Strike. The motion will be treated as a response to
2 MOTION to Dismiss. Signed by Magistrate Judge David A Baker on 12/9/2019.
(LAK) (Entered: 12/10/2019)

01/24/2020

14 INTERESTED PERSONS ORDER. Defendant Credit One Bank, N.A. shall file a
Certificate of interested persons and corporate disclosure statement due by 2/7/2020.
Signed by Judge Wendy W. Berger on 1/24/2020. (RMF)(ctp). (Entered: 01/24/2020)

02/05/2020

15

02/12/2020

16 OBJECTION to 15 Report and Recommendations by Jessica Graulau. (LDJ) (Entered:
02/13/2020)

02/12/2020

12 MOTION for Leave to Proceed on Appeal in forma pauperis by Jessica Graulau. (LDJ)

REPORT AND RECOMMENDATIONS that 9 MOTION to dismiss complaint and
refer case to arbitration be granted, that the case be dismissed, and that the case be
closed. Signed by Magistrate Judge David A Baker on 2/5/2020. (LAK) (Entered:
02/05/2020)

Motions referred to Magistrate Judge Gregory J. Kelly. (Entered: 02/13/2020)
02/18/2020

18

ORDER to show cause. Plaintiff is hereby ORDERED TO SHOW CAUSE by a
written response filed on or before February 28,2020. Signed by Judge Wendy W.
Berger on 2/18/2020. (RMF)ctp (Entered: 02/18/2020)
Appendix G, Pett.App. 27a

02/24/2020

12

RESPONSE TO ORDER TO SHOW CAUSE re 18 Order to show cause filed by Jessica
Graulau. (LDJ) (Entered: 02/24/2020)

02/24/2020

m

CERTIFICATE of interested persons and corporate disclosure statement re 14 Interested
persons order by Credit One Bank, N.A. identifying Corporate Parent Credit One Financial
for Credit One Bank, N.A. (Schuette, Michael) (Entered: 02/24/2020)

02/24/2020

21

NOTICE of pendency of related cases re 4 Related case order and track 2 notice per Local
Rule 1.04(d) by Credit One Bank, N.A. Related case(s): yes (Schuette, Michael) (Entered:
02/24/2020)
__________________________________________________

02/26/2020

22

RESPONSE re 16 Objection to Report and Recommendations (Plaintiffs Notice of
Appeal) filed by Credit One Bank, N.A.. (Schuette, Michael) (Entered: 02/26/2020)

04/07/2020

21

ORDER denying without prejudice 17 Motion to Proceed on appeal in forma
pauperis. Signed by Magistrate Judge David A Baker on 4/7/2020. (LAK) (Entered:
04/07/2020)

05/22/2020

24

Amended CERTIFICATE of interested persons and corporate disclosure statement re 1
Interested persons order by Jessica Graulau. (ARJ) (Entered: 05/22/2020)

05/22/2020

25

MOTION directed to the Assigned District Judge Regarding the Proceedings by Jessica
Graulau. (ARJ) Motions referred to Magistrate Judge Gregory J. Kelly. (Entered:
05/22/2020)

05/22/2020

26

MOTION directed to Assigned District Judge to Request Vacant of Magistrate Judge by
Jessica Graulau. (ARJ) Motions referred to Magistrate Judge Gregory J. Kelly. (Entered:
05/22/2020)________________________________________________

05/28/2020

21

ORDER: The Report and Recommendation 15, is ADOPTED and CONFIRMED
and made a part of this Order. Defendant's Motion to Dismiss and Enforce Order
Dismissing and Referring Case to Arbitration 2 is GRANTED. Plaintiff shall submit
to arbitration in accordance with the Joint Stipulation. The Clerk is directed to
terminate all pending motions and close this case. Signed by Judge Wendy W. Berger
on 5/28/2020. (RMF)ctp (Entered: 05/28/2020)

06/02/2020

28 NOTICE OF APPEAL as to 22 Order on Motion to Dismiss, Order on Report and
Recommendations by Jessica Graulau. Filing fee not paid. (Attachments: # 1 Order)(KNC)
(Entered: 06/03/2020)

06/02/2020

22

MOTION to Appeal In Forma Pauperis / Affidavit of Indigency by Jessica Graulau.
(KNC) (Entered: 06/03/2020)

06/02/2020

30

TRANSCRIPT information form filed by Jessica Graulau re 23 Notice of Appeal. USCA
number: TBD. (KNC) (Entered: 06/03/2020)

06/03/2020

31

TRANSMITTAL of initial appeal package to USCA consisting of copies of notice of
appeal, docket sheet, order/judgment being appealed, and motion, if applicable to USCA re
28 Notice of Appeal. (KNC) (Entered: 06/03/2020)

06/12/2020

32

DESIGNATION of Record on Appeal by Jessica Graulau re 28 Notice of Appeal (LDJ)
(Entered: 06/12/2020)______________________

07/08/2020

33

ORDER denying 29 Motion for Leave to Appeal In Forma Pauperis. Signed by Judge
Wendy W. Berger on 7/8/2020. (RMF)ctp (Entered: 07/08/2020)

10/05/2020

Pursuant to F.R. A.P. 11 (c), the Clerk of the District Court for the Middle District of Florida
certifies that the record is complete for the purposes of this appeal re: 28 Notice of Appeal.
Appendix G, Pett.App. 28a

All documents are imaged and available for the USCA to retrieve electronically. USCA
number: 20-12037 (ALL) (Entered: 10/05/2020)
11/04/2020

24 MANDATE of USCA as to 23 Notice of Appeal filed by Jessica Graulau Issued as
Mandate: 11/04/2020 USCA number: 20-12037. DISMISSED. (ALL) (Entered:
11/09/2020)______________________________________________________________ _

11/05/2020
12/08/2020

21

USCA Letter as to 28 Notice of Appeal filed by Jessica Graulau. EOD: 11/05/2020; USCA
number: 20-12037. Appeal is clerically REINSTATED. (ALL) (Entered: 11/09/2020)
Pursuant to F.R. A.P. 11 (c), the Clerk of the District Court for the Middle District of Florida
certifies that the record is complete for the purposes of this appeal re: 23 Notice of Appeal.
All documents are imaged and available for the USCA to retrieve electronically. USCA
number: 20-12037 (ALL) (Entered: 12/08/2020)

05/06/2021

36 OPINION of USCA as to 28 Notice of Appeal filed by Jessica Graulau. EOD: 5/6/2021;
Mandate to issue at a later date. USCA number: 20-12037. AFFIRMED. (TNP) (Entered:
05/06/2021)

06/04/2021

21 MANDATE of USCA as to 28 Notice of Appeal filed by Jessica Graulau. Issued as
Mandate: 06/04/2021 USCA number: 20-12037. AFFIRMED. (ALL) (Entered:
06/07/2021)

PACER Service Center
Transaction Receipt
07/28/2021 23:51:13
PACER
Login:
Description:
Billable
Pages:

Graulaj7

Client Code:

Docket

Report

Search
Criteria:

6:19-cv-Ol 723-WWBGJK

3

Cost:

0.30

Appendix G, Pett.App. 29a
-j

Case No. 14 C 10106
UNITED STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF ILLINOIS EASTERN DIVISION

A.D. v. Credit One Bank, N.A.
Decided Aug 19, 2016

Case No. 14 C 10106
08-19-2016
A.D., by and through her guardian ad litem Judith
Serrano, on behalf of herself and all others
similarly situated, Plaintiff, v. CREDIT ONE
BANK, N.A., Defendant.
MATTHEW F. KENNELLY, District Judge
MEMORANDUM OPINION AND ORDER

2

A.D., a minor acting through her guardian ad litem
Judith Serrano, has sued Credit One Bank, N.A.,
under the Telephone Consumer Protection Act
(TCPA), 47U.S.C. § 227, on behalf of herself and
others similarly situated. A.D. alleges that Credit
One violated the TCPA by repeatedly calling her
on her cellular phone without her consent, using
an automated dialer, ostensibly to collect on a debt
she did not owe. Credit One has moved to dismiss
for lack of subject matter jurisdiction under
Federal Rule of Civil Procedure 12(b)(1) on the
basis that A.D. and members of the putative class
lack standing to sue. Credit One has also moved to
compel arbitration based on an arbitration
agreement it had with A.D.'s guardian ad litem,
A.D. opposes both motions and has moved for
class certification under Rule 23(b)(3). For the
reasons stated below, the Court denies A.D.'s
motion for class certification, denies Credit One's
motion to dismiss, and grants Credit One's motion
to compel arbitration and stay *2 proceedings.

Background

Credit One is a national bank that provides
banking services and credit cards throughout the
United States. Judith Serrano, the plaintiffs
mother, has been one of its customers since about
2003, when she opened a credit card account with
Credit One and began using the card for everyday
purchases. A.D., Serrano's daughter, is not an
account holder and is not named on her mother's
account.
In order to open her account, Serrano signed a
standard "Visa / Mastercard Cardholder
Agreement, Disclosure Statement and Arbitration
Agreement." The agreement provided, among
other things, that Serrano consented to receive
communications from Credit One:
COMMUNICATIONS:
You
are
providing express written permission
authorizing Credit One Bank or its agents
to contact you at any phone number
(including mobile, cellular / wireless, or
similar devices) or email address you
provide at anytime [sic], for any lawful
purpose. The ways in which we may
contact you include live operator,
automatic telephone dialing systems (autodialer), prerecorded message, text message
or email. Phone numbers and email
addresses you provide include those you
give to us, those from which you contact
us or which we obtain through other
means. Such lawful purposes include, but
are not limited to . . . collection on the
Account....
Pl.'s Ex. 2, dkt. no. 78-3, at 6. The agreement also
included an arbitration provision, which stated:

casetext

Appendix H, Pett.App. 30a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. III. Aug. 19, 2016)

Agreement to Arbitrate: You and we
agree that either you or we may, without
the other's consent, require that any
controversy or dispute between you and us
(all of which are called "Claims"), be
submitted
to
mandatory,
binding
arbitration. This arbitration provision is
made pursuant to a transaction involving
interstate commerce, and shall be governed
by, and enforceable under, the Federal
Arbitration Act (the "FAA"), 9 U.S.C. § 1
et seq., and (to the extent State law is
applicable), die State law governing this
Agreement.
3

transaction with [Credit One] or do business with
Credit One in any way." Id. "Based on the content
of the messages left and the conversations with
[Credit One's] agents who spoke on the phone,"
A.D. alleged that "[Credit One] was seeking to
collect on a consumer loan extended to another
person." Id. 9. A.D. did not identify who she
thought that other person might have been.

*3

Claims Covered: Claims subject to
arbitration include, but are not limited to,
disputes relating to the establishment,
terms, treatment, operation, handling,
limitations on or termination of your
account . . . billing, billing errors, credit
reporting, the posting of transactions,
payment or credits, or collections matters
relating to your account.
Id. at 8. The agreement further provided:
Claims subject to arbitration include not
only Claims made directly by you, but also
Claims made by anyone connected with
you or claiming through you, such as a co­
applicant or authorized user of your
account, your agent, representative or
heirs, or a trustee in bankruptcy.
Id. The Cardholder Agreement defined
"authorized user" as anyone the cardholder allows
to use her account. See id. at 4.
A.D. filed this suit against Credit One in
December 2014 after receiving "at least twelve
calls at different times" from Credit One to her
cellular phone. Compl., dkt. no. 1, 9. She alleged
that these calls were made "using an automatic
telephone dialing system," and that she never gave
consent to receive such calls. Id. If 8. A.D. also
alleged that "[a]t no time did [she] engage in any
casetext

4

Credit One answered A.D.'s complaint in February
2015. In its answer, it asserted an affirmative
defense in which it "reserve[d] its right to compel
arbitration." Answer, dkt. no. 17, at 14 4. It
provided no further explanation. Credit One
moved to stay proceedings in April 2015 to await
an anticipated FCC ruling, moved for leave to file
a third-party complaint against Serrano in May
2015, and moved to transfer venue in *4 August
2015. The Court denied each of these motions,
none of which was based upon the asserted
affirmative defense that this dispute was subject to
arbitration.
During discovery, Credit One reviewed its records
and learned that it acquired A.D.'s telephone
number when it received a call from that number
on November 10, 2010. The person who called
Credit One from that telephone number accessed
Serrano's account by giving Serrano's account
number and confirming the last four digits of her
social security number. During her deposition in
April 2016, A.D. testified that her telephone
number is on her mother's family phone service
plan and that her mother pays its bills. She also
testified that although her mother has used the
phone, the phone belongs to A.D. alone.
According to A.D., the only two people who have
ever had access to the phone are she and her
mother, but only Serrano knows the last four digits
of Serrano's social security number. Based on this
testimony, the only explanation for Credit One
acquiring A.D.'s telephone number and
determining that it was associated with Serrano's
account was that Serrano called Credit One and
accessed her account using A.D.’s telephone.

Appendix H, Pett.App. 31a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. III. Aug. 19, 2016)

Credit One also learned in A.D.'s and Serrano's
depositions in April 2016 that prior to the
telephone calls A.D. allegedly received, A.D.
enjoyed some benefits of her mother's Credit One
account holder status. Serrano testified that she
regularly used the card to purchase food and drink
for herself and her daughter. Serrano also testified
that on at least one occasion in early 2014, she
preordered drinks from an eateiy in her local mall
and sent A.D. in with Serrano's Credit One credit
card to pay for the drinks.

5

A.D. and Serrano testified in April 2016, shortly
after die close of die first phase of discovery. A.D.
moved for class certification in May 2016, and
Credit One responded *5 and filed motions to
dismiss and compel arbitration shortly thereafter.

Discussion
Credit One moves to dismiss under Rule 12(b)(1)
for lack of subject matter jurisdiction, asserting
that A.D. and the members of the putative class
did not suffer a justiciable injury-in-fact sufficient
to confer standing to sue as required by Article III
of the Constitution. Credit One also moves to
compel arbitration and stay or dismiss this case
pursuant to the arbitration agreement in the
Cardholder Agreement applicable to Serrano’s
Credit One account. A.D. opposes both motions
and moves to certify a class of similarly situated
persons who also received autodialed telephone
calls without first giving Credit One consent to
call them.

A. Subject matter jurisdiction
"Article III of the Constitution limits federal
judicial power to certain 'cases' and 'controversies,'
and the 'irreducible constitutional minimum' of
standing contains three elements." Silha v. ACT,
Inc., 807 F.3d 169, 173 (7th Cir. 2015) (quoting
Lujan v. Defs. of Wildlife, 504 U.S. 555, 559-60
(1992)). The first of these three elements is that
tire plaintiff must have suffered an "'injury in fact'
that is (a) concrete and particularized and (b)
actual or imminent, not conjectural or
hypothetical." Friends of the Earth, Inc. v.

Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167,
180-81 (2000). The injury must also be "fairly
traceable to the challenged action of the
defendant" and redressable through judicial action.
Id,

6

In May 2016, the Supreme Court decided Spokeo,
Inc. v. Robins, 136 S. Ct. 1540 (2016). In Spokeo,
the Court vacated and remanded a Ninth Circuit
decision finding that a plaintiff asserted a concrete
and particularized injuiy sufficient to confer *6
constitutional standing where he sued based on a
defendant's violation of a consumer protection
statute. Credit One, relying on Spokeo, has now
moved to dismiss for lack of subject matter
jurisdiction on the basis that A.D. has failed to
allege a concrete and particularized injury-in-fact.
Pointing out that A.D. seeks only statutory
damages and is not seeking any actual damages,
Credit One argues that "statutory damage does
not, by itself, meet the standing requirements to
invoke jurisdiction of the federal courts." Def.'s
Mem., dkt. no. 103, at 7. Under Credit One's
reading, "it is die awarding of statutory damages
'without more' which is now barred by Spokeo."
Id.
In Spokeo, the Supreme Court considered a case in
which a plaintiff brought suit to enforce the Fair
Credit Reporting Act (FCRA), 15 U.S.C. §
1681e(b), a consumer protection statute intended
to ensure "fair and accurate credit reporting," id. §
1681(a)(1). The defendant, Spokeo Inc., was
alleged to be a consumer reporting agency that
operated a website through which users could
search for information about a person by inputting
that person's name, e-mail address, or telephone
number. In response to an online inquiry, Spokeo
would search its databases and provide
information to the searcher about the search
subject, such as his or her address, telephone
number, marital status, age, occupation, finances,
and education. The plaintiff, Thomas Robins, sued
Spokeo when he learned that the company
incorrectly reported that he was married with
children, in his fifties, gainfully employed,

casetext
Appendix H, Pett.App. 32a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. III. Aug. 19, 2016)

affluent, and highly educated. This, Robins
claimed, violated the FCRA, which provides that
consumer reporting agencies must "follow
reasonable procedures to assure maximum
possible accuracy" of consumer reports. 15 U.S.C.
§ 1681e(b).

7

The district court dismissed Robins's complaint
for lack of subject matter *7 jurisdiction based on
the absence of an injury-in-fact sufficient to confer
constitutional standing under Article III, but the
Ninth Circuit reversed. The court first observed
that under Ninth Circuit precedent, "the violation
of a statutory right is usually a sufficient injury in
fact to confer standing." Robins v. Spokeo, Inc.,
742 F.3d 409, 412 (9th Cir. 2014). It then found
that Robins had standing to sue because his
asserted injury was concrete and particularized,
traceable to Spokeo's conduct, and redressable
through litigation. Specifically, the appellate court
found that Robins's injury was sufficiently
concrete and particularized because he alleged that
Spokeo "violated his statutory rights, not just the
statutory rights of other people," and his personal
interests in the handling of his credit information
[were] individualized rather than collective." Id. at
413.
The Supreme Court disapproved of the Ninth
Circuit’s
reasoning.
It
explained
that
"concreteness" and "particularization" are distinct
concepts and that both most exist for a plaintiff to
have standing. The Court observed that the two
reasons the Ninth Circuit gave for finding Robins
had suffered an injury-in-fact—that his, not just
other people's, rights were violated, and that his
interests in the handling of his credit information
were individualized—demonstrated only that the
harm he alleged was particularized. They did not,
however, demonstrate that his injury was concrete.
The Court explained that "[a] 'concrete' injury
must be 'de facto'\ that is, it must actually exist,
When we have used the adjective 'concrete,' we
have meant to convey the usual meaning of the
term—'real,' and not 'abstract.'" Spokeo, 136 S. Ct.
at 1548. Because the Ninth Circuit did not

8

consider the extent to which Robins alleged more
than a "bare procedural violation," id. at 1549, the
Court vacated the appellate court's judgment and
remanded the case for further proceedings. *8
Spokeo was not the first case to set forth that an
injury must be both concrete and particularized to
suffice as an injury-in-fact for the purposes of
constitutional standing. (That said, it may have
been the first case in which the Court opined on
the distinction between the two concepts. See
Spokeo, 136 S. Ct. at 1555 (Ginsbuig, J.,
dissenting) ("The Court's opinion observes that
time and again, our decisions have coupled the
words 'concrete and particularized.' True, but true
too, in the four cases cited by the Court, and many
others, opinions do not discuss the separate offices
of the terms 'concrete' and 'particularized.'")
(internal citations omitted)). Indeed, concreteness
and particularity have been the twin pillars of a
justiciable injury-in-fact for at least forty years.
See, e.g., Duke Power Co. v. Car. Envtl. Study
Grp., Inc., 438 U.S. 59, 80 (1978) ("Where a party
champions his own rights, and where the injury
alleged is a concrete and particularized one which
will be prevented or redressed by the relief
requested, the basic practical and prudential
concerns underlying die standing doctrine are
generally satisfied when the constitutional
requisites are met."), The Court in Spokeo also
explained that a plaintiff cannot "allege a bare
procedural violation, divorced from any concrete
harm, and satisfy the injury-in-fact requirement of
Article III." Spokeo, 136 S. Ct. at 1549. But this
too was well-settled law. See, e.g., Summers v.
Earth Island Inst., 555 U.S. 488, 496 (2009);
Lujan, 504 U.S. at 572.
More importantly, the Court did not fmd that
Robins's asserted injury was not concrete. Rather,
the Court simply observed that the Ninth Circuit
failed to consider the question adequately. The
Supreme Court did not reverse the Ninth Circuit
outright; instead, it vacated the appellate court's

Appendix H, Pett.App. 33a
casetext

A.D. v. Credit One Bank, N.A.

9

Case No. 14 C 10106 (N.D. ill. Aug. 19, 2016)

judgment and remanded the case so the court
could more carefully examine whether Robins's
asserted harms were concrete. *9
The Supreme Court in Spokeo did, however, set
forth a blueprint for evaluating whether an alleged
injury is sufficiently concrete to qualify for
purposes of the standing inquiry. The Court
implied that tangible harms are generally
sufficient to constitute a concrete injury, but a
justiciable case or controversy can still exist even
when the harms the plaintiff alleges are intangible.
It cautioned courts that "concrete" is not a
synonym for "tangible," for "we have confirmed
in many of our previous cases that intangible
injuries can nevertheless be concrete." Spokeo,
136 S. Ct. at 1549 (citing Pleasant Grove City v.
Summum, 555 U.S. 460 (2009), and Church of
Lukumi Bablu Aye, Inc. v. Hialeah, 508 U.S. 520
(1993)).
To identify whether an intangible injury is
concrete, "both history and the judgment of
Congress play important roles." Spokeo, 136 S. Ct.
at 1549. The Court observed that because the caseor-controversy requirement at the heart of the
standing inquiry "is grounded in historical
practice, it is instructive to consider whether an
alleged intangible harm has a close relationship to
a harm that has traditionally been regarded as
providing a basis for a lawsuit in English or
American courts." Id. at 1549 (citing Vt. Agency of
Nat. Res. v. United States ex rel. Stevens, 529 U.S.
765, 775-77 (2000)). The Court also encouraged
courts to defer to some extent to Congress's
judgment, "because Congress is well positioned to
identify intangible harms that meet minimum
Article III requirements." Spokeo, 136 S. Ct. at
1549. This is why the Court has recognized
Congress's power to "elevate to the status of
legally cognizable injuries concrete, de facto
injuries that were previously inadequate at law"
and to "define injuries and articulate chains of
causation that will give rise to a case or
controversy where none existed before." Id.
(internal citations and quotation marks omitted).

^jp casetext

10

But, the Court *10 cautioned, "Congress’ role in
identifying and elevating intangible harms does
not mean that a plaintiff automatically satisfies the
injury-in-fact requirement whenever a statute
grants a person a statutory right and purports to
authorize that person to sue to vindicate that
right.” Id.

A handful of district courts have, since Spokeo,
conducted this analysis in similar cases and
determined that plaintiffs like Robins lack
standing to sue because they do not allege
concrete injuries. For example, in Smith v. Ohio
State University, plaintiffs applying to work for
the defendant alleged that the defendant requested
consent to pull their credit reports during the
hiring process, providing a disclosure and
authorization
that
included
extraneous
information. See Smith v. Ohio State Univ., No.
2:15 C 3030, 2016 WL 3182675, at *1 (S.D. Ohio
June 8, 2016). Plaintiffs sued the defendant under
the FCRA, which provides that "a person may not
procure a consumer report, or cause a consumer
report to be procured, for employment purposes
with respect to any consumer unless ... the
consumer has authorized in writing ... the
procurement of the report by that person." 15
U.S.C. § 1681b(b)(2)(A)(ii). The court found that
the plaintiffs lacked standing to sue because they
had not identified a concrete and particularized
injury-in-fact. It noted the Supreme Court's
observation in Spokeo that "[a] violation of one of
the FCRA's procedural requirements may result in
no harm," Spokeo, 136 S. Ct. at 1540, and it found
that this was precisely what had occurred, because
the plaintiffs "admitted that they did not suffer a
concrete consequential damage as a result of
OSU's alleged breach of the FCRA." Smith, 2016
WL 3182675, at *4. Likewise, in Gubala v. Time
Warner Cable, Inc. (cited by Credit One), another
district court found that a plaintiff failed to allege
1.1 a concrete injuiy where his suit was *li based on
the defendant’s failure to abide by the Cable
Communications Policy Act, 47 U.S.C. § 551(e),
which required it to destroy records containing_his^

Appendix H, Pett.App. 34a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. III. Aug. 19, 2016)

personal information. See Gubala v. Time Warner
Cable, Inc., No. 15 C 1078, 2016 WL 3390415, at
*1 (E.D. Wis. June 17, 2016).

the same as charging the defendant with causing a
congressionally-identified concrete injury that
gives rise to standing to sue.

Like the statute allegedly violated in Spokeo, the
statutes at issue in these cases imposed record­
keeping and procedural obligations on the
defendants. The Supreme Court noted in Spokeo
that "the violation of a procedural right granted by
statute can be sufficient in some circumstances to
constitute injury in fact. In other words, a plaintiff
in such a case need not allege any additional harm
beyond the one Congress has identified.” Spokeo,
136 S. Ct. at 1549 (citing Fed. Election Comm'n v.
Akins, 524 U.S. 11, 20-25 (1998), and Public
Citizen v. Dep't of Justice, 491 U.S. 440, 449
(1989)). But in other circumstances, a plaintiff
would need to show more than the mere violation
of a procedural right. Section 1681e(b) of the
FCRA, the Court explained, was in the latter
group of cases. ”[N]ot all inaccuracies cause harm
or present any material risk of harm. An example
that comes readily to mind is an incorrect zip
code. It is difficult to imagine how die
dissemination of an incorrect zip code, without
more, could work any concrete harm.” Spokeo,
136 S. Ct. at 1550.

The same cannot be said of the TCPA claims
asserted in this case. Unlike the statute at issue in
Spokeo (and those at issue in Smith and Gubala),
the TCPA section at issue does not require the
adoption
of
procedures
to
decrease
congressionally-identified risks. Rather, section
227 of the TCPA prohibits making certain kinds of
telephonic contact with consumers without first
obtaining their consent. It directly forbids
activities that by their nature infringe the privacyrelated interests that Congress sought to protect by
enacting the TCPA. There is no gap—there are not
some kinds of violations of section 227 that do not
result in the harm Congress intended to curb,
namely, the receipt of unsolicited telemarketing
calls that by their nature invade the privacy and
disturb the solitude of their recipients.

The Supreme Court's point in Spokeo was not that
a statutory violation cannot constitute a concrete
injury, but rather that where the bare violation of a
statute conferring a procedural right could cause a
congressionally identified harm or material risk of
harm and just as easily could not, it is not
sufficient simply to allege that the statute at issue
was violated. Failure to ensure the accuracy of a
consumer report may result in a harm or material
risk of harm the FCRA was intended to curb—loss
12 of *12 employment opportunities, for example, or
a decrease in die consumer's creditworthiness. But
it may also fail to cause any harm or material risk
of harm at all. Put differently, the procedural rights
imposed through section 1681e(b) are attenuated
enough from die interests Congress identified and
sought to protect dirough the FCRA that charging
a defendant with violating them is not necessarily

In any event, section 227 establishes substantive,
not procedural, rights to be free from
telemarketing calls consumers have not consented
to receive. Both history and the judgment of
Congress suggest that violation of this substantive
right is sufficient to constitute a concrete, de facto
injury. As other courts have observed, American
and English courts have long heard cases in which
plaintiffs alleged that defendants affirmatively
directed their conduct at plaintiffs to invade their
13 privacy and disturb their *13 solitude. See, e.g.,
Meyv. Got Warranty, Inc., No. 5:15 C 101, 2016
WL 3645195, at *3 (N.D.W.V. June 30, 2016) (”
[T]he TCPA can be seen as merely liberalizing
and codifying the application of [a] common law
tort to a particularly intrusive type of unwanted
telephone call.”); Caudill v. Wells Fargo Home
Mort., Inc., No. 5:16-066-DCR, 2016 WL
3820195, at *2 (E.D. Ky. July 11, 2016) ("[The]
alleged harms, such as invasion of privacy, have
traditionally been regarded as providing a basis for
a lawsuit in the United States.”). And Congress
enacted the TCPA to protect consumers from the
annoyance, irritation, and unwanted nuisance of

casetext
Appendix H, Pett.App. 35a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. III. Aug. 19, 2016)

telemarketing phone calls, granting protection to
consumers' identifiable concrete interests in
preserving their rights to privacy and seclusion.
Credit One argues that "statutory damage does
not, by itself, meet the standing requirements to
invoke jurisdiction of the federal courts" and "it is
the awarding of statutory damages 'without more'
which is now barred by Spokeo." Def.'s Mem.,
dkt. no. 103, at 7. This argument confuses
"damage" with "harm" or "injury." Damages are
legal remedies for harms or injuries suffered, they
are not the harms or injuries themselves. Spokeo
does not stand for the proposition that a plaintiff
lacks standing to sue if she foregoes her right to
seek actual damages and seeks only statutory
damages. Rather, it stands for the proposition that
a plaintiff lacks standing to sue if she has not
suffered a factual, real-world injury in the form of
a concrete and particularized harm. Congress has
recognized that although it might be difficult to
monetize, a consumer suffers a concrete though
intangible injury when she is subjected to an
autodialed non-emergency phone call without
having given prior express consent. The consumer
can quantify the extent of her injury by seeking
14 actual damages, or she can simply request *14
damages in the set amount provided by Congress
in the TCPA. A.D. has chosen the latter route;
doing so does not divest her of standing to sue.
Credit One cites a recent decision by a judge in the
Eastern District of Louisiana who found no
concrete injury where the named plaintiff alleged
he received unsolicited fax advertisements from
the defendants in violation of section 227. See
Sartin v. EKF Diagnostics, Inc., No. 16 C 1816,
2016 WL 3598297, at *3-4 (E.D. La. July 5,
2016). There, the court found that the plaintiff
failed to allege a concrete injury-in-fact where he
alleged only that he and the class he purported to
represent "sustain[edj statutory damages, in
addition to actual damages, including but not
limited to those contemplated by Congress and the
Federal Communications Commission." Id. at *3
(internal quotation marks omitted). The plaintiff

responded to the defendants' motion to dismiss by
stating that he was injured by having to waste
valuable time as a result of the fax, but the court
refused to acknowledge the plaintiffs argument
because that injury was not stated in the
complaint. Because "[t]he well-pleaded factual
allegations in the complaint establish nothing
more than a bare violation of the TCPA, divorced
from any concrete harm to [the plaintiff]," the
court found he "failed to demonstrate a judiciallycognizable injury in fact" and dismissed his case
for lack of subject matter jurisdiction. Id. at *4.
The Court respectfully disagrees with the
reasoning of the judge in Sartin. In contrast to
statutes that impose obligations regarding how one
manages data, keeps records, or verifies
information, section 227 of the TCPA directly
prohibits a person from taking actions directed at
consumers who will be touched by that person's
conduct. It does not matter whether a plaintiff
lacks additional tangible harms like wasted time,
actual annoyance, and financial losses. Congress
15 has identified that unsolicited *15 telephonic
contact constitutes an intangible, concrete harm,
and A.D. has alleged such concrete harms that she
herself suffered. It would be redundant to require a
plaintiff to allege that her privacy and solitude
were breached by a defendant's violation of
section 227, because Congress has provided
legislatively that a violation of section 227 is an
invasion of the call recipient's privacy.
Finally, Credit One argues on reply that A.D. lacks
standing because she has not adduced evidence of
injuries she suffered and because she did not
discuss the traceability element of constitutional
standing in her response brief. The Court notes
that A.D. has no responsibility to adduce evidence
to prove her claims in response to a motion to
dismiss and that the subject of Credit One's threeand-a-half page argument in its motion to dismiss
was whether A.D. alleged a concrete injury, not
whether the injury was traceable to Credit One's
conduct. In any event, the Court disagrees with
Credit One’s argument that evidence shows that it

casetext
Appendix H, Pett.App. 36a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. ill. Aug. 19, 2016)

was Serrano's act of calling Credit One on her
daughter's phone that caused the injury alleged.
A.D. alleges that she received an autodialed debt
collection call from Credit One without giving
consent. Whether or not her mother did something
to authorize Credit One to make the call, the injury
that A.D. alleges is directly traceable to Credit
One’s act of calling (or having a call made on its
behalf to) A.D.'s phone.
In sum, A.D. has identified a concrete injury-infact that she herself suffered, and she has alleged
that the injury is fairly traceable to Credit One's
conduct and is judicially redressable. For these
reasons, A.D. has standing, and the Court may
exercise subject matter jurisdiction over her case.
The Court therefore denies Credit One's motion to
dismiss for lack of subject matter jurisdiction
16 under Rule 12(b)(1). *16

B. Motion to compel arbitration
Credit One has also moved to compel arbitration
and stay or dismiss this action based on the
arbitration clause in Serrano's Cardholder
Agreement. A.D. argues that Credit One's motion
is untimely. As noted above, A.D. filed this
lawsuit in December 2014. Credit One answered
the complaint, moved to stay the case pending an
FCC ruling that would allegedly impact this
dispute, and moved to transfer venue, but it did
not move to compel arbitration until June 2016.
A.D. argues that Credit One has no plausible
explanation for the eighteen-month delay between
the date the complaint was filed and the date
Credit One sought to compel arbitration, and that
the Court should therefore deny the motion and
allow her case to proceed.
As an initial matter, Credit One aigues that
because "Ms. Serrano's Cardholder Agreement
provides that Nevada law applies," Nevada's
waiver rules govern this case. Def.'s Mem., dkt.
no. 106, at 7. But the Cardholder Agreement does
not so provide. In truth, the agreement states that it
"is made pursuant to a transaction involving
interstate commerce, and shall be governed by,
^ casetext

and enforceable under, the Federal Arbitration Act
(the 'FAA'), 9 U.S.C. § 1 et seq., and (to the extent
State law is applicable), the State law governing
this Agreement." Pl.’s Ex. 2, dkt. no. 78-3, at 8.
Credit One offers no authority for the proposition
that Nevada law should govern the particular
question of whether the contractual right to
arbitrate has been waived, and the Court sees no
reason it should not rely on federal rules of
decision on this issue, especially in light of the
"long line of cases show[ing] that the FAA
preempts inconsistent state law." Renard v.
Ameriprise Fin. Sen’s,, Inc., 778 F.3d 563, 566-67
(7th Cir. 2015).
"A party may waive a contractual right to arbitrate
17 expressly or implicitly." Halim *17 v. Great
Gatsby's Auction Gallery, 516 F.3d 557. 562 (7th
Cir. 2008) (citation omitted). A court seeking to
determine whether a party has waived arbitration
must "examine the totality of the circumstances
and determine whether ... the party ... has acted
inconsistently with the right to arbitrate." Sharifv.
Wellness Int'l Network, Ltd., 376 F.3d 720, 726
(7th Cir. 2004) (citation omitted). "Although
several factors may be considered in determining
waiver, diligence or the lack thereof should weigh
heavily in the decision—did that party do all it
could reasonably have been expected to do to
make the earliest feasible determination of
whether to proceed judicially or by arbitration?"
Ernst & Young LLP v. Baker ONeal Holdings,
Inc., 304 F.3d 753, 756 (7th Cir. 2002) (emphasis
and internal quotation marks omitted).
A.D. contends that Credit One waived its right to
arbitrate because it filed "substantive" motions
prior to moving to compel arbitration. As A.D.
points out, "a litigant cannot attempt to prevail in
court, then seek arbitration only as a fallback."
Cent. III. Carpenters Health & Welfare Trust Fund
v. Con-Tech Carpentry, LLC, 806 F.3d 935, 937
(7th Cir. 2015). There is some truth to A.D.'s
contention. Credit One's request to stay the case
pending an anticipated FCC ruling on a contested
legal issue and its request to transfer the case to

Appendix H, Pett.App. 37a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. III. Aug. 19, 2016)

another federal district both implied that it was
looking for a judicial decision in the case rather
than a decision by an arbitrator
The record reflects, however, that Credit One did
not have a viable basis to seek arbitration of A.D.’s
claims until quite recently. Of course, "lengthy
delay" itself "can lead to an implicit waiver of
arbitration." See Welborn Clinic v. Medquist, Inc.,
301 F.3d 634, 637 (7th Cir. 2002). This is
especially true where the delay was due purely to
the defendant's lack of diligence. Ernst & Young,
18 304 F.3d at 756. A.D. aigues that the *18 docket is
replete with evidence of Credit One’s delinquency
in determining whether it had a contractual right to
arbitrate. She points out that Credit One knew at
least as early as February 2015 that it might have a
right to arbitrate, as evidenced by the fact that it
asserted in its answer to the complaint a
reservation of the potential right to seek an order
compelling arbitration. A.D. contends that this fact
undermines Credit One’s assertion that it did not
know it had a right to arbitrate until recently. She
also argues that even if Credit One indeed did not
know it had the right to arbitrate until recently,
there is no reason it should have taken this long.
A.D. points out that Credit One's investigation of
its records took minimal time and effort, but did
not even begin until over a year after her lawsuit
was filed. She also points out that it is implausible
that Credit One could not have foreseen that
depositions would reveal that a mother and her
minor daughter sometimes use the same phone
and sometimes enjoy goods and services
purchased by use of the mother's credit card,
These aiguments are not persuasive, at least not on
the record before the Court. First, the mere
inclusion of a reservation of the right to seek
arbitration in Credit One's answer is not an
indication that it long ago knew or should have
known that it had a contractual right to arbitrate
claims by A.D., a non-cardholder. Aside from the
caption and introduction, which stated that A.D.
was bringing suit "by and through her guardian ad
litem Judith Serrano," Compl., dkt. no. 1, at 1,

A.D.'s complaint nowhere referenced the fact that
she had used a Credit One credit card or had
allowed her mother to use her cellular phone to
make a call concerning the account; in fact, A.D.
indicated she had done no business whatsoever
with Credit One. All told, the complaint contained
nothing that would have given Credit One a basis
19 to demand arbitration. Its reservation of the *19
right to seek arbitration later does not signal that it
knew it had viable grounds to do so at the time.
Second, Credit One's investigation into its records
could have been conducted earlier, but it would
have revealed only that Credit One obtained
A.D.'s number when the phone was used to call
the company to check Serrano's account. It would
not have revealed whether A.D. had ever used the
credit card, whether it was A.D. or her mother
who called, or whether the company could
otherwise demonstrate that A.D. should be bound
to the terms of the arbitration agreement her
mother signed. Credit One did not learn what it
needed to know to support its motion to compel
arbitration until it took A.D. and Serrano's
depositions in April 2016 and learned the extent to
which A.D. was connected to her mother’s Credit
One account. Credit One filed its motion promptly
after taking those depositions. On the record
before the Court, Credit One was reasonably
diligent and has not waived its right to arbitrate.
A.D. does not appear to dispute that had Serrano
sued Credit One under the TCPA for autodialing
her to collect on a debt without prior express
consent, her claim would be subject to arbitration.
The arbitration clause contained in the Cardholder
Agreement is extremely broad and expressly
covers all claims concerning "collections matters"
and "communications relating to [the cardholder's]
account." But Serrano has not brought suit—A.D.
has. Credit One acknowledges that A.D. is not a
cardholder or a named account holder with Credit
One and that A.D. has never signed any agreement
to do business with Credit One, much less an
agreement that includes an arbitration provision. It
argues, however, that A.D. must arbitrate her

casetext
Appendix H, Pett.App. 38a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. III. Aug. 19, 2016)

TCPA claims because A.D. is an "authorized user"
of her mother's credit card who should be bound to
20 die terms of the *20 contract Serrano signed.
Generally speaking, a non-party to an arbitration
agreement cannot be forced to arbitrate, for "a
party cannot be required to submit to arbitration
any dispute which he has not agreed so to submit."
United Steelworkers of Am. v. Warrior & Gulf
Navigation Co., 363 U.S. 574, 582 (1960). The
Seventh Circuit has long recognized, however,
that "there are five doctrines through which a non­
signatory can be bound by arbitration agreements
entered into by others: (1) assumption; (2) agency;
(3) estoppel; (4) veil piercing; and (5)
incorporation by reference." Zurich Am. Ins. Co. v.
Watts Indus., Inc., 417 F.3d 682, 687 (7th Cir.
2005) (citing Fyrnetics (H.K.) Ltd. v. Quantum
Group, Inc., 293 F.3d 1023, 1029 (7th Cir. 2002)).
Credit One contends that the doctrine of estoppel
applies in this case. Under this doctrine, "a
nonsignatory party is estopped from avoiding
arbitration if it knowingly seeks the benefits of the
contract containing the arbitration clause." Zurich
Am., 417 F.3d at 688. Credit One points out that
during their depositions, A.D. and Serrano
revealed that A.D. used her mother's credit card on
at least one occasion and allowed her mother to
use her cell phone to call Credit One to make an
inquiry about her account. Credit One argues that
this makes A.D. an "Authorized User" under the
Cardholder Agreement and a direct beneficiary of
the contract. It contends that she is essentially
seeking to enjoy the benefits of her mother's
contract (by using the card and allowing the
cardholder to inquire about the account using her
telephone) but avoid die same contract's
arbitration provision.
A.D. disagrees. She contends that she cannot be
considered a beneficiary of the contract or an
"Authorized User" because she never "used" the
21 credit card or sought to *21 enjoy the benefits of
the contract in question. She does not deny that
she brought the credit card into an eateiy and

casetext

made a purchase with the card on at least one
occasion, nor does she deny that she allowed
Serrano to use her phone to call Credit One about
the card's account. She contends, however, that
paying for food or drink for herself and her mother
with her mother's card does not make her a "user"
of the card and does not amount to invoking the
Cardholder Agreement’s benefits. A.D. says that
this is "exactly what happens at a restaurant when
a diner pays using a card. The card is handed to
the server, who takes the card to the point of sale
device and runs the charge, returning with the card
and a receipt for signature." Pl.'s Resp., dkt. no.
113, at 9. She argues that she merely "transported
the card" to the eatery's "point of sale device" and
returned with pre-ordered beverages. "If [A.D.] is
an authorized user," she says, "then so is each and
every waiter, cashier, toll booth attendant, and
department store clerk in the United States who
handle[s] countless cards for customers on a daily
basis and physically processes] financial
transactions." Id.
This argument is utterly lacking in merit. A.D. is
nothing like a waiter, cashier, attendant, or
department store clerk. A cashier who is handed a
credit card to pay for a purchase acts as an agent
of the payee. The cashier in no way represents that
he or she is audiorized to pay for goods or services
with the card. Conversely, when A.D. walked into
an eatery with a credit card to pay for a purchase,
she represented to the payee that she was
authorized to use die card she handed them. There
is a fundamental and material difference between
a person who acts on behalf of a payee to run a
credit card and demand payment from the credit
card company for a purchase and a payor who
represents that the credit card company will pay
22 for a purchase on the *22 payor's behalf.
When a consumer hands a credit card to a vendor
(or a vendor's cashier), she is in effect representing
to the vendor that the credit card company is
contractually obligated to transfer funds to the
vendor to cover the cost of the goods sold or
services rendered. A. D. did exactly that: she

Appendix H, Pett.App. 39a

A.D. v. Credit One Bank, N.A.

Case No. 14 C 10106 (N.D. III. Aug. 19, 2016)

asked a vendor to provide her with goods without
requiring her to tender payment, based on her
representation that Credit One was contractually
obligated to tender payment on her behalf. The
only reason she was able to do this was that the
Cardholder Agreement Serrano signed permits her
to authorize her daughter to use the card. A.D.
therefore derived benefit from the contract
containing the arbitration agreement.
The doctrine of estoppel exists in this context "to
prevent a litigant from unfairly receiving the
benefit of a contract while at the same time
repudiating what it believes to be a disadvantage
in the contract, namely the contractual arbitration
provision." Gersten v. Intrinsic Techs., LLP, 442 F.
Supp. 2d 573, 579 (N.D. Ill. 2006) (citing Am.
Bureau of Shipping v. Tencara Shipyard S.PA.,
170 F.3d 349, 352 (2d Cir. 1999)). That is
precisely what A.D. is attempting to do. The
Cardholder Agreement allowed her to represent
that Credit One would pay for a purchase she
made. It also requires the cardholder and any
authorized user to arbitrate any claims arising out
of communications Credit One makes and
collections activities it engages in concerning the
account. A.D. is bound to the terms of the
Cardholder Agreement, and Credit One has a
contractual right to arbitrate this dispute. The
Court therefore grants Credit One's motion to
compel arbitration. Rather than dismiss the case,
the Court will stay proceedings and compel
23 arbitration. See Halim, 516 F.3d at 561. *23

The arbitration agreement applicable to this
dispute also provides that "[i]f you or we require
arbitration of a particular Claim, neither you, we,
nor any other person may pursue the Claim in
litigation, whether as a class action, private
attorney general action, other representative action
or otherwise." Pl.'s Ex. 2, dkt. no. 78-3, at 8. It
further provides that "no class action, private
attorney general action or other representative
action may be pursued in arbitration, nor may such
action be pursued in court if any party has elected
arbitration." Id. at 9. In light of these provisions,
the Court denies A.D.'s motion for class
certification.

Conclusion
For the foregoing reasons, the Court denies Credit
One's motion to dismiss for lack of subject matter
jurisdiction [dkt. no. 102] but grants its motion to
compel arbitration [dkt. no. 105]. In light of the
class action waiver contained in the user
agreement that binds A.D., the Court denies A.D.'s
motion for class certification [dkt. no. 78]. This
case is accordingly stayed pending the outcome of
arbitration, and the case will be administratively
terminated in the interim. A joint status report
regarding the status of arbitration proceedings is to
be filed as of February 28, 2017.

isL
MATTHEW F. KENNELLY
United States District Judge Date: August 19,
2016

^||p casetext

Appendix H, Pett.App. 40a

3ln %

Untteh Jlfaies (ttmtrt of Appeals
3jnr fl|i>

QJtrnut

No. 17-1486
A.D., a minor, individually and on behalf of all others simi­
larly situated,
Plaintiff-Appellan t,
v.
Credit One Bank, N. A.,
Defendant-Appellee.

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. l:14-cv-10106 — Matthew F. Kennelly, Judge.

Argued November 29,2017 — Decided March 22,2018

Before WOOD, Chief Judge, and RIPPLE and KANNE, Circu it
Judges.
RIPPLE, Circuit Judge. A.D., by and through her mother, Ju­
dith Serrano, brought this putative class action under the Tel­
ephone Consumer Protection Act. She seeks compensation for
telephone calls placed by Credit One Bank, N.A.
("Credit One") to her telephone number in an effort to collect
a debt that she did not owe. After discovery, Credit One

Appendix I, Pett.App. 41a

No. 17-1486

2

moved to compel arbitration and to defeat A.D/s motion for
class certification based on a cardholder agreement between
Credit One and Ms. Serrano. The district court granted
Credit One's motion to compel arbitration but certified for in­
terlocutory appeal the question whether A.D. is bound by the
cardholder agreement.1 We granted A.D/s request for per­
mission to appeal. See 28 U.S.C. § 1292(b).2 We now reverse
the district court's grant of Credit One's motion to compel ar­
bitration and remand for further proceedings consistent with
this opinion. A.D. is not bound by the terms of the cardholder
agreement to arbitrate with Credit One, and she has not di­
rectly benefited from the cardholder agreement such that eq­
uitable principles convince us to apply the arbitration clause
against her.

I
BACKGROUND
A.
In 1991, Congress amended the Communications Act of
1934 to address "the advent of automated devices that dial up
to 1,000 phone numbers an hour and play prerecorded sales
pitches." Moser v. FCC, 46 F.3d 970, 972 (9th Cir. 1995). The
amending statute, the Telephone Consumer Protection Act
("TCPA"), makes it unlawful to use an "automatic telephone
dialing system or an artificial or prerecorded voice" to call a
cell phone without "the prior express consent of the called
party." 47 U.S.C. § 227(b)(1)(A). An individual who provides
1 The district court also denied A.D/s motion for class certification.
2 The district court had jurisdiction under 28 U.S.C. § 1331.

Appendix I, Pett.App. 42a

3

No. 17-1486

her cell phone number to a creditor through a credit applica­
tion "reasonably evidences prior express consent... to be con­
tacted at that number regarding the debt." Rules & Regulations
Implementing the Tel. Consumer Prot. Act of 1991, 23 FCC Red.
559, 564 (FCC 2008). A creditor relying on the "prior express
consent" exception to the TCPA has the burden of showing
that "it obtained the necessary prior express consent." Id. at
565.
The TCPA provides a private right of action for individu­
als to claim that their rights under the TCPA have been vio­
lated. See 47 U.S.C. § 227(b)(3). Successful plaintiffs may re­
cover the greater of the amount of (1) actual damages or (2)
$500 for each violation, meaning each phone call. Id.

B.
Ms. Serrano opened a credit card account with Credit One
in 2003. In 2010, she used A.D/s cell phone to access her
Credit One account by calling Credit One and providing her
account number and the last four digits of her social security
number. Using caller ID capture software, Credit One at­
tached A.D/s cell phone number to Ms. Serrano's account.
Ms. Serrano later fell behind on her credit card payments,
and Credit One began calling the telephone numbers previ­
ously stored with her account in an attempt to collect the debt.
In her complaint, A.D. alleges that, in the course of this collec­
tion process, Credit One repeatedly called her about her
mother's debt. Specifically, A.D. alleges that she received a
good number of calls from Credit One in October and No­
vember 2014.

Appendix I, Pett.App. 43a

No. 17-1486

4

Upon opening her account with Credit One, Ms. Serrano
had signed a standard cardholder agreement. This agreement
included, among other terms, an arbitration clause and class
action waiver, which stated:
Agreement to Arbitrate:
You and we agree that either you or we may,
without the other's consent, require that any
controversy or dispute between you and us (all
of which are called "Claims"), be submitted to
mandatory, binding arbitration. This arbitration
provision is made pursuant to a transaction in­
volving interstate commerce, and shall be gov­
erned by, and enforceable under, the Federal
Arbitration Act (the "FAA"), 9 U.S.C. § 1 et seq.,
and (to the extent State law is applicable), the
State law governing this Agreement.

Claims subject to arbitration include not only
Claims made directly by you, but also Claims
made by anyone connected with you or claim­
ing through you, such as a co-applicant or au­
thorized user of your account, your agent, rep­
resentative or heirs, or a trustee in bankruptcy.

If you or we require arbitration of a particular
Claim, neither you, we, nor any other person
may pursue the Claim in any litigation, whether

Appendix I, Pett.App. 44a

5

No. 17-1486
as a class action, private attorney general action,
other representative action or otherwise.131

When A.D. first filed this action, Credit One was not aware
that it had a cardholder agreement with her mother. A.D. did
not state in her complaint that her mother was the probable
target of Credit One's phone calls (although she was listed as
A.D/s guardian ad litem in the complaint). After eighteen
months of discovery, and after reviewing its own records,
Credit One finally realized that its caller ID capture system
had added A.D/s phone number to its database when
Ms. Serrano used A.D/s phone to access her account. At that
point, Credit One sought to compel arbitration with A.D.
based on the arbitration clause in Ms. Serrano's cardholder
agreement.4
The only evidence that A.D. ever used Ms. Serrano's
Credit One credit card was Ms. Serrano's deposition testi­
mony that, on at least one occasion, Ms. Serrano had preor­
dered smoothie drinks for her daughter and herself from a
stand in the local mall and had sent A.D. to pick them up. She
had instructed A.D. to pay for the smoothies with her
Credit One card. This transaction occurred in 2014, when
A.D. was fourteen years old.
3 R.78-3 at 8.
4 In response to Credit One's motion to compel arbitration, A.D. urged
that Credit One had waived its right to arbitrate by waiting too long and
by filing other substantive motions in the district court before moving to
compel arbitration. The district court concluded that even if Credit One
could have checked its databases for A.D/s phone number earlier,
Credit One did not have a factual basis for invoking its right to arbitration
until Ms. Serrano's deposition, when it "learned the extent to which A.D.
was connected to her mother's Credit One account." R.118 at 19.

Appendix I, Pett.App. 45a

6

No. 17-1486

The district court ruled with Credit One that A.D. was
bound by the cardholder agreement's arbitration clause. In its
view, even though A.D. had not signed the cardholder agree­
ment, she must be considered an "Authorized User" under its
terms. Therefore, continued the court, she is bound by the ar­
bitration clause under the "direct benefits estoppel" theory.
Under this theory, explained the court, a person should not
receive a benefit under a contract while, at the same time, re­
pudiating a disadvantage under the contract. The court then
reasoned that the cardholder agreement had allowed A.D.,
when picking up the drinks ordered by her mother, to repre­
sent to the store that Credit One would pay for the purchase.
She therefore had benefited from the cardholder agreement
between her mother and Credit One. Having accepted a ben­
efit under the contract, the district court concluded, she must
accept the burden of the arbitration clause.
Because it concluded that the arbitration clause in the
cardholder agreement was applicable, the court stayed the
case pending the outcome of arbitration. A.D. filed a motion
to reconsider, or, in the alternative, to certify the arbitration
question for interlocutory appeal under 28 U.S.C. § 1292(b).
The district court denied the motion to reconsider but granted
the motion to certify the ruling for interlocutory appeal. In
certifying the question for interlocutory appeal, the court
noted that "[t]here is a substantial ground for difference of
opinion because the contours of the arbitration-by-estoppel
doctrine in the Seventh Circuit are unclear."5 We later granted
a petition for certification.

5 R.126 at 2.

Appendix I, Pett.App. 46a

No. 17-1486

7

II
DISCUSSION
We review a district court's ruling on a motion to compel
arbitration de novo. Schemer v. Fromm Family Foods LLC, 863
F.3d 748, 751 (7th Cir. 2017). Any findings of fact underlying
that decision are reviewed for clear error. Id. As we noted in
Schemer, "arbitrability may depend on equitable doctrines
such as waiver and estoppel, which may require a court to
resolve issues such as prejudice and reliance." Id. at 752 n.2.
We review a district court's decision to apply an equitable
doctrine for an abuse of discretion, and "nothing about arbi­
tration would seem to call for a different approach." Id.

A.
Our case law establishes three bedrock principles about
the enforcement of arbitration agreements. First, the Federal
Arbitration Act evinces a "national policy favoring arbitra­
tion." AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 346
(2011) (quoting Buckeye Check Cashing, Inc. v. Cardegna, 546
U.S. 440,443 (2006)). Second, an arbitration agreement gener­
ally cannot bind a non-signatory. Zurich Am. Ins. Co. v. Watts
Indus., Inc., 417 F.3d 682, 687 (7th Cir. 2005). Finally, arbitra­
tion agreements generally are enforceable against non-signa­
tories only in a handful of limited circumstances, depending
on the applicable state law. These limited exceptions are: (1)
assumption, (2) agency, (3) estoppel, (4) veil piercing, and (5)
incorporation by reference. Id.
These bedrock principles allow us to set forth, in more de­
tailed fashion, particular considerations that must guide our
resolution of the present controversy. Section 2 of the Federal

Appendix I, Pett.App. 47a

8

No. 17-1486

Arbitration Act "reflects] both a 'liberal federal policy favor­
ing arbitration' and the 'fundamental principle that arbitra­
tion is a matter of contract/" Concepcion, 563 U.S. at 339 (cita­
tion omitted) (first quoting Moses H. Cone Mem 7 Hasp. v. Mer­
cury Constr. Corp., 460 U.S. 1, 24 (1983); then quoting Rent-ACenter, W., Inc. v. Jackson, 561 U.S. 63, 67 (2010)). It requires
federal courts to "place arbitration agreements on an equal
footing with other contracts and enforce them according to
their terms." Id. (citation omitted). We will compel arbitration
under the Federal Arbitration Act "if three elements are pre­
sent: (1) an enforceable written agreement to arbitrate, (2) a
dispute within the scope of the arbitration agreement, and (3)
a refusal to arbitrate." Scheurer, 863 F.3d at 752.
However, because arbitration agreements are contracts, a
"party 'cannot be required to submit to arbitration any dis­
pute which he has not agreed so to submit/" Id. (quoting
United Steelworkers of Am. v. Warrior & GulfNavigation Co., 363
U.S. 574, 582 (I960)). Therefore, the general rule is that
non-signatories are not bound to arbitration agreements. See
Zurich, 417 F.3d at 687. We will enforce an arbitration agree­
ment against a non-signatory if the party seeking to compel
arbitration can show that an exception to this general rule ap­
plies. Id.
The direct benefits estoppel doctrine applied by the dis­
trict court is one such exception. See id. To determine whether
an exception applies to make "a contract, including an arbi­
tration agreement, ... enforceable by or against a non-party,"
we look to "traditional principles of state law." Scheurer, 863
F.3d at 752 (quoting Arthur Andersen LLP v. Carlisle, 556 U.S.
624,631 (2009)); see also Warciak v. Subway Rests., Inc., 880 F.3d

Appendix I, Pett.App. 48a

No. 17-1486

9

870,872 (7th Cir. 2018). Here, the cardholder agreement spec­
ifies that Nevada law applies to disputes arising under the
contract, and the parties have not suggested that any other
law is applicable.6
From these observations, the analytical framework that we
must follow in our resolution of this matter becomes evident.
We first must determine whether A.D. is bound by the arbi­
tration clause. If she is not, we must determine whether Ne­
vada law nevertheless would bind her under the direct bene­
fits estoppel theory.

B.
We first examine whether, under ordinary principles of
contract law, A.D. is bound by the arbitration clause.
Credit One submits that A.D. is bound by the cardholder
agreement as an Authorized User. The cardholder agreement
provides a mechanism for cardholders to designate other in­
dividuals as Authorized Users of their accounts:
3. AUTHORIZED USER: At your request, we
may, at our discretion, issue an additional card
in the name of an Authorized User with your
credit card account number. If you allow some­
one to use your Account, that person will be an
Authorized User. By designating an Authorized

6 Specifically, the cardholder agreement reads: "GOVERNING LAW:
This Agreement is governed by and interpreted in accordance with the
laws applicable to national banks, and, where no such laws apply, by the
laws of tire State of Nevada, exduding tire conflicts of law provisions
thereof, regardless of your state of residence/' R.78-3 at 7.

Appendix I, Pett.App.

49a

10

No. 17-1486
User who is at least fifteen years of age, you un­
derstand that: 1) you will be solely responsible
for the use of your Account and each card is­
sued on your Account including all charges and
transactions made by the Authorized User and
any fees resulting from their actions to the ex­
tent of the credit limit established for the Ac­
count; 2) the Authorized User will have access
to certain account information including bal­
ance, available credit and payment information.
...; 3) we reserve the right to terminate the Card
Account privileges of an Authorized User by
closing your Account and issuing you a new ac­
count number; 4) the Account may appear on
the credit report of the Authorized User. ...; 5)
the Authorized User can make payments, report
the card lost or stolen and remove him or herself
from the Account; 6) you can request the re­
moval of the Authorized User from your Ac­
count via mail or telephone.
Authorized User Annual Participation Fee: An
Authorized User Annual Participation Fee of
$19.00 will be imposed for issuing a card in the
Authorized User's name. This Fee will be as­
sessed annually in the month the Authorized
User was added to the account.173

7 Id. at 4.

Appendix I, Pett.App. 50a

No. 17-1486

11

Notably, by its terms, the arbitration clause specifically ap­
plies to claims "made by anyone connected with" the account
holder, "such as a co-applicant or authorized user" of the ac­
count.8
The district court held that because Ms. Serrano told A.D.
to use the credit card to pick up the smoothies, Ms. Serrano
had made her an authorized user of the account. The court
seemingly relied on the language from the cardholder agree­
ment that "[i]f you allow someone to use your Account, that
person will be an Authorized User. "9
In our view, the district court's analysis is difficult to
square with the overall language of the cardholder agree­
ment.
The cardholder agreement sets forth a specific procedure
that an account holder must follow to add an authorized user
to her account. This provision makes it clear that an individ­
ual does not become an Authorized User simply by using the
credit card to complete the cardholder's transaction. Rather,
the term clearly foresees an Authorized User as playing a far
more durable role in the account.
In order to designate a person as an Authorized User, an
account holder must notify Credit One that she wishes to add
an Authorized User to the account, so that Credit One can is­
sue a card in the Authorized User's name. The Authorized
User has many of the same rights under the cardholder agree­
ment as the account holder and can use the card to complete
her own transactions, not just those of the account holder. The
sId. at 8.
9 Id. at 4.

Appendix I, Pett.App. 51a

12

No. 17-1486

durability of the arrangement is also made dear by the nineteen-dollar fee imposed on the account holder for adding an
Authorized User. Furthermore, and most importantly for
A.D.'s case, the Authorized User must be at least fifteen years
old.
It is undisputed that neither Ms. Serrano nor Credit One
followed any step of this process. Ms. Serrano did not request
that Credit One add A.D. as an Authorized User. Credit One
did not send A.D. a card with her name on it (and in fact,
Credit One was unaware of A.D/s relationship to Ms. Serrano
until eighteen months after A.D. filed this action). A.D. did
not have any rights under the cardholder agreement that the
contract gives to true Authorized Users. Credit One never as­
sessed Ms. Serrano the nineteen-dollar annual fee for adding
an Authorized User. Indeed, A.D. was fourteen years old at
the time of the smoothie transaction and, therefore, not even
eligible to become an Authorized User under the cardholder
agreement.
Although this analysis seems straightforward, we turn to
examine two possible arguments to the contrary. First, the ar­
bitration clause of the cardholder agreement does not capital­
ize "authorized user." This style might suggest that a differ­
ent meaning should be attributed to the term in the arbitration
clause from the one prescribed for the rest of the contract. Sec­
ondly, Credit One submits that the Authorized User clause
creates more than one category of Authorized User: those
who are Authorized Users because the account holder "allow[s] [them] to use [the] Account," and those who are "at
least fifteen years of age" and subject to all of the rights and
responsibilities identified in the Authorized User provision.

Appendix I, Pett.App. 52a

No. 17-1486

13

Neither the contract language read as a whole nor the gov­
erning law supports these arguments. Even if we were to ac­
cept, for the sake of argument, that the contract creates multi­
ple categories of Authorized Users (or "authorized users," as
the arbitration clause reads), and even if someone can become
one kind of authorized user just by using the credit card,
Credit One's position cannot surmount two major stumbling
blocks. First, as we have noted earlier, it is a fundamental
principle of arbitration law that "a party cannot be required
to submit to arbitration any dispute which he has not agreed
so to submit." United Steelworkers of Am. v. Warrior & GulfNav­
igation Co., 363 U.S. 574, 582 (1960). A.D. simply did not con­
sent to arbitrate with Credit One. More fundamentally, A.D.
did not have legal capacity to enter into a contractual relation­
ship with Credit One. A.D. was a minor at the time of the
smoothie transaction. Under applicable state law, minors lack
capacity to enter into contracts and can disaffirm their obliga­
tions under contracts formed before they reach the age of
eighteen.10 Moreover, A.D. certainly engaged in an act of disaffirmation by filing this lawsuit and asserting her status as a
minor.11 Assuming, for the sake of argument, that A.D.

10 This is true under the laws of both Nevada (the law governing the card­
holder agreement) and California (the law of A.D.'s residence). See Cal.
Family Code § 6710; Nev. Rev. Stat. § 129.010. See generally Restatement
(Second) of Conflict of Laws § 198 (Am. Law Inst. 1971).
11 Berg v. Traylor, 56 Cal. Rptr. 3d 140,148 (Cal. Ct. App. 2007) ("No specific
language is required to communicate an intent to disaffirm. 'A contract
(or conveyance) of a minor may be avoided by any act or declaration dis­
closing an unequivocal intent to repudiate its binding force and effect/
Express notice to the other party' is unnecessary'/' (citation omitted) (quot­
ing Spencer v. Collins, 104 P. 320, 322 (Cal. 1909))); W.M. Barnett Bank v.

Appendix I. Pett.App. 53a

14

No. 17-1486

formed any kind of contractual relationship with Credit One
before she reached the age of majority, she has disaffirmed
any obligation under that contractual relationship that she
might have had.
Credit One also argues that A.D. has waived any argu­
ment that she does not qualify as an Authorized User under
the terms of the agreement or that, as a minor, she has a right
to disaffirm the contract. It is true that, at the district court
level, A.D. did not make any specific arguments about the
scope of the authorized user provision of the cardholder
agreement. However, as the party seeking to compel arbitra­
tion, Credit One had the burden of showing that A.D. was
bound by the cardholder agreement as an authorized user. See
Zurich, 466 F.3d at 580 (setting forth elements that a party
seeking to compel arbitration must prove). Credit One only
obliquely made such an argument at the district court
through the conclusory statement in its motion to compel ar­
bitration that because "Ms. Serrano permitted Plaintiff A.D.
to use the card on Plaintiffs behalf. ... Plaintiff became an

Chiatovich, 232 P. 206,214 (Nev. 1925). lit Chiatovich, the Supreme Court of
Nevada held that a defendant had waived the defense of infancy by not
pleading it. "The plea of infancy," tire court held, "is a personal defense,
which, after coming of age, one may or may not interpose. Tire general
doctrine is that tire note of an infant is voidable, not void, and may be
ratified after he comes of age." Chiatovich, 232 P. at 214. "If the defendant
were of age when sued, Iris failure to plead Iris infancy at the time of the
contract would dearly be a waiver and implied ratification." Id. (internal
quotation marks omitted). Notably, A.D. was still a minor at the time she
filed the lawsuit. This is dear on fire face of the complaint. See R.1 at 1
("Plaintiff A.D., is a minor, age 15 at the time of filing ....").

Appendix I, Pett.App. 54a

No. 17-1486

15

'Authorized User/"12 Credit One cannot rely on waiver when
it was Credit One's burden to show that A.D. had become an
Authorized User under the cardholder agreement and was
therefore subject to the arbitration clause.13

C.

Having concluded that the terms of the cardholder agree­
ment do not bind A.D., we turn to the issue upon which our
colleague in the district court believed that there was some
uncertainty: whether principles of equity and fairness none­
theless require A.D. to arbitrate with Credit One. Nevada has
a strong preference for honoring arbitration agreements, but
it will not enforce an arbitration clause against a non-signa­
tory unless other principles of contract law make it appropri­
ate to do so. Truck. Ins. Exch. v. Palmer]. Swanson, Inc., 189 F.3d
656, 659-60 (Nev. 2008).14 Nevada courts have adopted five

12 R.91 at 10.
13 Finally, we note that our conclusion that the arbitration dause is not
enforceable against A.D. is consistent with the "equal-treatment prinaple
that applies to arbitration agreements." Hunt v. Moore Bros., Inc., 861 F.3d
655, 659 (7th Cir. 2017); see also AT&T Mobility LLC v. Concepcion, 563 U.S.
333, 339 (2011). Under that prinaple, when parties have formed an agree­
ment to arbitrate, we must place that arbitration agreement on equal foot­
ing with other contracts. For die reasons we have discussed, however,
A.D. does not have a contractual relationship of any kind with Credit One.
14 As we have disaissed, under the cardholder agreement's dtoice-of-law
dause, Nevada law governs the interpretation of the cardholder agree­
ment. Credit One maintains that the d\oice-of-law dause also governs the
direct benefits estoppel analysis. See Appellee's Br. 16. The district court
applied federal law to die estoppel analysis. As we recently darified in

Appendix I, Pett.App. 55a

16

No. 17-1486

"theories for binding nonsignatories to arbitration agree­
ments: 1) incorporation by reference; 2) assumption; 3)
agency; 4) veil-piercing/alter ego; and 5) estoppel." Id. at 660
(quoting Thom$on-CSFr S.A. v. Am. Arbitration Ass'n, 64 F.3d
773, 776 (2d Cir. 1995)). Credit One urges that principles of
equitable estoppel require that A.D. be bound to this arbitra­
tion agreement despite her age.

Sdieurer v. Fromm Family Foods LLC, the question whether a party is equi­
tably estopped from denying the application of an arbitration clause is a
question of state contract law. 863 F.3d 748, 752-53 (7th Cir. 2017). We al­
ready have concluded that A.D. is not a party to the cardholder agree­
ment, and generally, choice-of-law clauses in contracts do not apply to
non-parties. Cf. Stromberg Metal Works, Inc. v. Press Mech.. Inc., 77 F.3d 928,
933 (7th Cir. 1996) (stating that "[ejven the strongest language choosing
[another state's] law for purposes of interpreting the subcontracts would
not necessarily bind" non-parties to the contract because " they did not sign
the contracts"). Notably, "A.D. does not concede that Nevada law applies,
because only if there is a valid contract can the choice of law provision in
the agreement become effective." Reply Br. 7-8. However, A.D. does not
otherwise meaningfully challenge the application of Nevada law in her
reply to Credit One's contention; she does not offer another state's law as
a viable option; and she does not propose that we engage in a
choice-of-law analysis to determine which state's law to apply. Therefore,
we consider her to have waived the issue and will apply Nevada law. Cf
LAK, Inc. v. Deer Creek Enters., 976 F.2d 328,331 (7th Cir. 1992) ("While we
are not bound by tire parties' choice of law, no party has challenged tire
application of Florida's substantive law. Thus, we proceed accordingly."),
hr any event, as we note in the text, Nevada has followed general common
law principles of equitable estoppel.

Appendix I, Pett.App. 56a

No. 17-1486

17
1.

Estoppel is an equitable doctrine that prevents a non-sig­
natory "from refusing to comply with an arbitration clause
'when it receives a "direct benefit" from a contract containing
an arbitration clause/" Id. at 661 (quoting Int'l Paper Co. v.
Schwabedissen Maschinen & Anlagen GMBH, 206 F.3d 411, 418
(4th Cir. 2000)). Credit One maintains that A.D. directly bene­
fited under the cardholder agreement because Ms. Serrano
asked her to make purchases with the card. According to
Credit One, "A.D. obtained the same type of contractual ben­
efit as Serrano," which is the ability to use the credit card to
make purchases.15 But any "benefit" that A.D. received with
respect to the credit card was limited to following her
mother's directions to pick up the smoothies that her mother
had ordered previously. This limited direction derived from
the mother-daughter relationship. A.D. had no relationship,
contractual or otherwise, with Credit One. She derived no di­
rect benefit from the cardholder agreement. Her mother, not
A.D., benefited from the agreement, which allowed her, not
A.D., to buy the smoothies. Credit One's position that A.D.
directly benefited under the cardholder agreement and is
therefore estopped from denying the application of the arbi­
tration clause simply misapprehends the purpose and scope
of the direct benefits estoppel remedy.
2.
An estoppel theory also can be premised on the character
of the non-signatory's claim. When a non-signatory plaintiff's
15 Appellee's Br. 18.

Appendix I, Pett.App. 57a

18

No. 17-1486

"case center[s] on its asserted rights under the ... contract"
containing the arbitration clause, the non-signatory is bound
by the arbitration clause. Id. at 661; see also Int'l Paper Co. v.
Schwahedissen Maschineti & Anlagen GMBH, 206 F.3d 411, 417
(4th Cir. 2000) ("In the arbitration context, the doctrine recog­
nizes that a party may be estopped from asserting that the
lack of his signature on a written contract precludes enforce­
ment of the contract's arbitration clause when he has consist­
ently maintained that other provisions of the same contract
should be enforced to benefit him.").
Credit One attempts to characterize A.D/s straightfor­
ward TCPA claim as a claim seeking benefits under the card­
holder agreement. Its argument is a convoluted and unper­
suasive one. It points out that the TCPA does not apply to autodialed phone calls that are made with the called party's
"prior express consent." 47 U.S.C. § 227(b)(1)(A). Whether
A.D. consented to the calls, Credit One continues, depends on
the terms of the cardholder agreement. Therefore, according
to Credit One, because it has raised consent as an affirmative
defense to A.D.'s TCPA claims, A.D/s suit is one brought un­
der the cardholder agreement.
The mere statement of this argument reveals its lack of co­
gency. As a party to the cardholder agreement, Ms. Serrano
consented to phone calls from Credit One. Credit One's af­
firmative defense thus depends on whether Ms. Serrano's
consent under the cardholder agreement can be imputed to
A.D. According to Credit One, this question of contract inter­
pretation transforms A.D/s TCPA claim into one that relies
on the cardholder agreement such that A.D. should be es­
topped from denying the application of the arbitration clause
in her TCPA claim.

Appendix I, Pett.App. 58a

No. 17-1486

19

Consent is an affirmative defense under the TCPA, an af­
firmative defense that Credit One must establish. Blow v. Bipra, Inc., 855 F.3d 793, 803 (7th Cir. 2017). It is not part of
A.D.'s case. A.D. does not have to prove that she did not con­
sent to the calls in order to succeed on her TCPA claims.
Credit One's argument is entirely without merit.16
In her underlying TCPA action, A.D. has asserted no right
under the cardholder agreement. Her action is under a com­
pletely separate statute protecting her from harassing phone
calls. This is the "core" of her case. E.I. DuPont de Nemours &
Co. v. Rhone Poulenc Fiber & Resin Intermediates, S.A.S., 269F.3d
187, 201 (3d Cir. 2001). In no way can her cause of action be
considered premised on the cardholder agreement. If we were
to hold A.D. amenable to the cardholder agreement arbitra­
tion clause simply because, as a matter of affirmative defense
in the present action, Credit One might argue that Ms. Serrano
consented to the calls when she signed that agreement, we
would "threaten to overwhelm the fundamental premise that
a party cannot be compelled to arbitrate a matter without its
agreement." Bridas S.A.P.LC. v. Gov't of Turkmenistan, 345 F.3d
347,361 (5th Cir. 2003).

16 This appeal does not give us an occasion to address the merits of die
underlying case.

Appendix I, Pett.App.

59a

20

No. 17-1486
Conclusion

For the reasons set forth in the foregoing opinion, we re­
verse the judgment of the district court and remand for fur­
ther proceedings.17 A.D. may recover the costs of this appeal.
REVERSED and REMANDED

17 Because we conclude that the arbitration clause, including its class ac­
tion waiver, does not apply to A.D., our remand permits the district court
to reconsider its denial of A.D.'s motion for dass certification.

Appendix I, Pett.App. 60a

RULE 1.03

DOCKETING AND ASSIGNMENT OF CASES

(a)
Upon the filing of the initial paper or pleading in any case the Clerk shall docket the
proceeding as a civil criminal or miscellaneous action. Each case or proceeding shall be given a
- which includes: (1) the one-digit number indicating the division of the
• a• *•2
number indicating the year in which the proceeding is initiated; (3) the code
indicating the docket to which the case is assigned; (4) the sequence number of the case or
proceeding, (5) a designation consisting of a letter or series of letters disclosing the division in
which tf\e Proceeding is pending; and (6) the code indicating the judge to whom the case is
assigned (‘he code shall conform to the code assigned by the Administrative Office of the United
States Courts) followed by the initials of the magistrate judge to whom the case is assigned.
r. . *(b) ■ AEdAh f?®f'’ Up?n the fi,in9 of the initial PaPer or Pleading, shall be assigned by the
£ fh\t0 an ,nd!vl5ua!Judge of the Court who shal1 thereafter be the presiding judge with respect
o that cause. Individual assignment of cases within each Division shall be made at random or by
lot in such proportions as the judges of the Court from time to time direct. Neither the Clerk nor
any member of his staff shall have any power or discretion in determining the judge to whom any
case is assigned. The method of assignment shall be designed to prevent anyone from choosinq
the judge to whom a case is to be assigned, and all persons shall conscientiously refrain from
attempting to circumvent this rule.
.. . W
No application for any order of court shall be made until the case or controversy in
whfch the matter arises has been docketed and assigned by the Clerk as prescribed by subsection
(b) of this rule, and then only to the judge to whom the case has been assigned; provided, however:

d)

When no case has previously been initiated, docketed and assigned,
emergency applications arising during days or hours that the Clerk's Office
is closed may be submitted to any available judge resident in the
appropriate Division, or, if no judge is available in the Division, to any other
judge in the District, but the case shall then be docketed and assigned by
the Clerk on the next business day and shall thereafter be conducted by the
judge to whom it is assigned in accordance with subsection (b) of this rule.

(2)

When the judge to whom a case has been assigned is temporarily
unavailable due to illness, absence or prolonged engagement in other
judicial business, emergency applications arising in the case may be made
to the other resident judge in the Division or, if more than one, to the judge
who is junior in commission in that Division. If no other judge is available in
the Division such applications may be made to any other available judqe in
the District.

(d)
The judge to whom any case is assigned may, at any time, reassign the case to any
other consenting judge for any limited purpose or for all further purposes.
(e)
The Clerk shall accept for filing all prisoner cases filed with or without the required
tiling fee or application to proceed in forma pauperis. However, a prisoner case will be subject to
dismissal by the Court, sua sponte, if the filing fee is not paid or if the application is not filed within
30 days of the commencement of the action.
12/1/09

1 -3

Appendix J, Pett.App. 61a

RULE 1.04

SIMILAR OR SUCCESSIVE CASES; DUTY OF COUNSEL

(a)
Whenever a case, once docketed and assigned, is terminated by any means and
is thereafter refiled without substantial change in issues or parties, it shall be assigned, or
reassigned if need be, to the judge to whom the original case was assigned. Whenever a second
or subsequent case seeking post conviction or other relief by petition for writ of habeas corpus is
filed by the same petitioner involving the same conviction, it shall be assigned, or reassigned if
need be, to the same judge to whom the original case was assigned. All motions under 28 U.S.C.
Section 2255 shall be assigned to the judge to whom the original criminal case was assigned.
(b)
TRANSFER OF RELATED CASES BEFORE TWO OR MORE JUDGES. If cases
assigned to different judges are related because of either a common question of fact or any other
prospective duplication in the prosecution or resolution of the cases, a party may move to transfer
any related case to the judge assigned to the first-filed among the related cases. The moving party
shall file a notice of filing the motion to transfer, including a copy of the motion to transfer, in each
related case. The proposed transferor judge shall dispose of the motion to transfer but shall grant
the motion only with the consent of the transferee judge. If the transferee judge determines that
the same magistrate judge should preside in some or all respects in some or all of the related
cases, the Clerk shall assign the magistrate judge assigned to the first-filed among the affected
cases to preside in that respect in those cases.
(c)
CONSOLIDATION OF RELATED CASES BEFORE ONE JUDGE. If cases
assigned to a judge are related because of either a common question of law or fact or any other
prospective duplication in the prosecution or resolution of the cases, a party may move to
consolidate the cases for any or all purposes in accord with Rule 42.Fed.R.Civ.P., or Rule 13,
Fed.R.Cr.P. The moving party shall file a notice of filing the motion to consolidate, including a copy
of the motion to consolidate, in each related case. If the presiding judge determines that the same
magistrate judge should preside in some or all respects in some or all of the consolidated cases,
the Clerk shall assign the magistrate judge assigned to the first-filed among the affected cases to
preside in that respect in those cases.
(d)
All counsel of record in any case have a continuing duty promptly to inform the Court
and counsel of the existence of any other case within the purview of this rule, as well as the
existence of any similar or related case or proceeding pending before any other court or
administrative agency. Counsel shall notify the Court by filing and serving a “Notice of Pendency
of Related Actions" that identifies and describes any related case.

12/1/09

1-4

Appendix J, Pett.App. 62a

RULE 3.08

NOTICE OF SETTLEMENTS; DISMISSAL

(a)
of any case.

It shall be the duty of all counsel to immediately notify the Court upon the settlement

. . (b) ri vyuhe'lnotlfied that a case has been settled and for purposes of administratively
closing the file, the Court may order that a case be dismissed subject to the right of any party to
move the Court within sixty (60) days thereafter (or within such other period of time as the Court
may specify) for the purpose of entering a stipulated form of final order or judgment; or, on qood
cause shown, to reopen the case for further proceedings.

12/1/09

3-13

Appendix J, Pett.App. 63a

CHAPTER SIX
UNITED STATES MAGISTRATE JUDGES
RULE 6.01

DUTIES OF UNITED STATES MAGISTRATE JUDGES

(a)
In addition to the powers and duties set forth in 28 U.S.C. Section 636(a), the United
States Magistrate Judges are hereby authorized, pursuant to 28 U.S.C. Section 636(b), to perform
any and all additional duties, as may be assigned to them from time to time by any judge of this
Court, which are not inconsistent with the Constitution and laws of the United States.
(b)
The assignment of duties to United States Magistrate Judges by the judges of the
Court may be made by standing order entered jointly by the resident judges in any Division of the
Court; or by any individual judge, in any case or cases assigned to him, through written order or oral
directive made or given with respect to such case or cases.
(c)
The duties authorized to be performed by United States Magistrate Judges, when
assigned to them pursuant to subsection (b) of this rule, shall include, but are not limited to:
(1)

Issuance of search warrants upon a determination that probable cause
exists, pursuant to Rule 41, Fed.R.Cr.P., and issuance of administrative
search warrants upon proper application meeting the requirements of
applicable law.

(2)

Processing of complaints and issuing appropriate summonses or arrest
warrants for the named defendants. (Rule 4, Fed.R.Cr.P.)

(3)

Conduct of initial appearance proceedings for defendants, informing them of
their rights, admitting them to bail and imposing conditions of release. (Rule
5, Fed.R.Cr.P. and 18 U.S.C. Section 3146)

(4)

Appointment of counsel for indigent persons and administration of the Court's
Criminal Justice Act Plan, including maintenance of a register of eligible
attorneys and the approval of attorneys' compensation and expense
vouchers. (18 U.S.C. Section 3006A; Rule 44, Fed.R.Cr.P.; and Rule 4.13(a)
of these rules)

(5)

Conduct of full preliminary examinations. (Rule 5.1, Fed.R.Cr.P. and 18
U.S.C. Section 3060)

(6)

Conduct of removal hearings for defendants charged in other districts,
including the issuance of warrants of removal. (Rule 40, Fed.R.Cr.P.)

6-1

12/1/09

Appendix J, Pett.App. 64a

(7)

Issuance of writs of habeas corpus ad testificandum and habeas corpus ad
prosequendum. (28 U.S.C. Section 2241(c)(5))

(8)

Setting of bail for material witnesses and holding others to security of the
peace and for good behavior. (18 U.S.C. Section 3149 and 18 U.S.C.
Section 3043)

(9)

Issuance of warrants and conduct of extradition proceedings pursuant to 18
U.S.C. Section 3184.

(10)

The discharge of indigent prisoners or persons imprisoned for debt under
process or execution issued by a federal court. (18 U.S.C. Section 3569 and
28 U.S.C. Section 2007)

(11)

Issuance of an attachment or other orders to enforce obedience to an
Internal Revenue Service summons to produce records or give testimony.
(26 U.S.C. Section 7604(a) and (b))

(12)

Conduct of post-indictment arraignments, acceptance of not guilty pleas,
acceptance of guilty pleas in felony cases with the consent of the Defendant,
and the ordering of a presentence investigation report concerning any
defendant who signifies the desire to plead guilty. (Rules 10,11 (a) and 32(c),
Fed.R.Cr.P.)

(13)

Acceptance of the return of an indictment by the grand jury, issuance of
process thereon and, on motion of the United States, ordering dismissal of
an indictment or any separate count thereof. (Rules 6(f) and 48(a),
Fed.R.Cr.P.)

(14)

Supervision and determination of all pretrial proceedings and motions made
in criminal cases through the Court's Omnibus Hearing procedure or
otherwise including, without limitation, motions and orders made pursuant to
Rules 12, 12.2(c), 15,16,17, 17.1 and 28, Fed.R.Cr.P., 18 U.S.C. Section
4244, orders determining excludable time under 18 U.S.C. Section 3161, and
orders dismissing a complaint without prejudice for failure to return a timely
indictment under 18 U.S.C. Section 3162; except that a magistrate judge
shall not grant a motion to dismiss or quash an indictment or information
made by the defendant, or a motion to suppress evidence, but may make
recommendations to the Court concerning them.

(15)

Conduct of hearings and issuance of orders upon motions arising out of
grand jury proceedings including orders entered pursuant to 18 U.S.C.
Section 6003, and orders involving enforcement or modification of
subpoenas, directing or regulating lineups, photographs, handwriting
exemplars, fingerprinting, palm printing, voice identification, medical
examinations, and the taking of blood, urine, fingernail, hair and bodily
secretion samples (with appropriate medical safeguards).

6-2

12/1/09

Appendix J, Pett.App. 65a

(16)

Conduct of preliminary and final hearings in all probation revocation
proceedings, and the preparation of a report and recommendation to the
Court as to whether the petition should be granted or denied. (Rule 32.1,
Fed.R.Cr.P. and 18 U.S.C. Section 3653.)

(17)

Processing and review of habeas corpus petitions filed pursuant to 28 U.S.C.
Section 2241, et seq., those filed by state prisoners pursuant to 28 U.S.C.
Section 2254, or by federal prisoners pursuant to 28 U.S.C. Section 2255,
and civil suits filed by state prisoners under 42 U.S.C. Section 1983, with
authority to require responses, issue orders to show cause and such other
orders as are necessary to develop a complete record, including the conduct
of evidentiary hearings, and the preparation of a report and recommendation
to the Court as to appropriate disposition of the petition or claim.

(18)

Supervision and determination of all pretrial proceedings and motions made
in civil cases including, without limitation, rulings upon all procedural and
discovery motions, and conducting pretrial conferences; except that a
magistrate judge (absent a stipulation entered into by all affected parties)
shall not appoint a receiver, issue an injunctive order pursuant to Rule 65,
Fed.R.Civ.P., enter an order dismissing or permitting maintenance of a class
action pursuant to Rule 23, Fed.R.Civ.P., enter any order granting judgment
on the pleadings or summary judgment in whole or in part pursuant to Rules
12(c) or 56, Fed.R.Civ.P., enter an order of involuntary dismissal pursuant to
Rule 41(b) or(c), Fed.R.Civ.P., or enter any other final order or judgment that
would be appealable if entered by a judge of the Court, but may make
recommendations to the Court concerning them.

(19)

Conduct of all proceedings in civil suits, before or after judgment, incident to
the Issuance of writs of replevin, garnishment, attachment or execution
pursuant to governing state or federal law, and the conduct of all proceedings
and the entry of all necessary orders In aid of execution pursuant to Rule 69,
Fed.R.Civ.P.

(20)

Conduct or preside over the voir dire examination and empanelment of trial
juries in civil and criminal cases.

(21)

Processing and review of all suits instituted under any law of the United
States providing for judicial review of final decisions of administrative officers
or agencies on the basis of the record of administrative proceedings, and the
preparation of a report and recommendation to the Court concerning the
disposition of the case.

(22)

Serving as a master for the taking of testimony and evidence and the
preparation of a report and recommendation for the assessment of damages
in admiralty cases, non-jury proceedings under Rule 55(b)(2), Fed.R.Civ.P.,
or in any other case in which a special reference is made pursuant to Rule
53, Fed.R.Civ.P.

6-3

12/1/09

Appendix J, Pett.App. 66a

r(23)

In admiralty cases, entering orders (i) appointing substitute custodians of
vessels or property seized in ram; (ii) fixing the amount of security, pursuant
1<L, Je E'5)' SuPPlemental Rules for Certain Admiralty and Maritime Claims
mcluding approval of the ad interim stipulation filed with the complaint
establishment of the means of notice to potential claimants and a deadline
°f claimsi an<J (iv) to restrain further proceedings against the
plaintiff in limitation except by means of the filing of a claim in the limitation
proceeding.

(24)

Appointing persons to serve process pursuant to Rule 4(c), Fed.R.Civ.P.,
asLta in
process, such appointments shall be made only
when the Marshal has no deputy immediately available to execute the same
and the individual appointed has been approved by the Marshal for such
purpose.

(25)

Processing and review of petitions in civil commitment proceedings under the
Narcotic Addict Rehabilitation Act, and the preparation of a report and
recommendation concerning the disposition of the petition.

(26)

penal,ies underthe

12/1/09

Appendix J, Pett.App. 67a

r
N

RULE 6.02

REVIEW OF MAGISTRATE JUDGES' REPORTS AND RECOMMENDATIONS

(a)
In any case In which the magistrate judge is not authorized to enter an operative
order pursuant to Rule 6.01, 28 U.S.C. Section 636 or any standing or special order of the Court
entered thereunder, but is authorized or directed to file a report or recommendation to the District
Judge to whom the case has been assigned, a copy of such report and recommendation shall be
furnished, upon filing, to the District Judge and to all parties. Within fourteen (14) days after such
service, any party may file and serve written objections thereto; and any party desiring to oppose
such objections shall have fourteen (14) days thereafter within which to file and serve a written
response. The District Judge may accept, reject, or modify in whole or in part, the report and
recommendation of the magistrate judge or may receive further evidence or recommit the matter
to the magistrate judge with instructions.

i

12/1/09

Appendix J, Pett.App. 68a

.

RULE 6.03

MISDEMEANOR AND PETTY OFFENSES

(a)
Pursuant to 18 U.S.C. Section 3401, any full time United States Magistrate Judge of
this District, sitting with or without a jury, shall have jurisdiction to try persons accused of, and
sentence persons convicted of, petty offenses. With consent of the parties, any full time United
States Magistrate Judge of this District, sitting with or without a jury, shall have jurisdiction to try
persons accused of, and sentence persons convicted of a Class A misdemeanor committed within
the District whether originating under an applicable Federal statute or regulation or a state statute
or regulation made applicable by 18 U.S.C. Section 13. Cases of misdemeanors may, upon transfer
into this District under Rule 20, Fed.R.Cr.P., be referred to a full time United States Magistrate
Judge of this District for plea and sentence, upon defendant's consent. In a petty offense case
involving a juvenile, any full time United States Magistrate Judge of this District may exercise all
powers granted to the District Court under Chapter 403 of Title 18 of the United States Code. In
cases of any misdemeanor, other than a petty offense involving a juvenile, in which consent to trial
before a Magistrate Judge has been filed, a Magistrate Judge may exercise all powers granted to
the District Court under Chapter 403 of Title 18 of the United States Code.
(b)
Any person charged with a petty offense as defined in 18 U.S.C. Section 19 may, in
lieu of appearance post collateral in the amount indicated for the offense, waive appearance before
a magistrate judge, and consent to forfeiture of the collateral. The offenses for which collateral may
be posted and forfeited in lieu of appearance by the person charged, together with the amounts of
collateral to be posted, shall be specified in standing orders of the Court, in each Division of the
Court, copies of which shall be maintained in the offices of the Clerk and the magistrate judges,
respectively. For all petty offenses not specified in such standing orders, the person charged must
appear before a magistrate judge; and further, nothing contained in this rule shall prohibit a law
enforcement officer from arresting a person for the commission of any offense, including those for
which collateral may be posted and forfeited, and requiring the person charged to appear before a
magistrate judge or, upon arrest, taking him immediately before a magistrate judge.
(c)
in the trial of all cases pursuant to this rule, Rule 58, Federal Rules of Criminal
Procedure, governs practice and procedure.

12/1/09

Appendix J, Pett.App. 69a
-k u

!
i
A

RULE 6.04

RESERVED

:

12/1/09

Appendix J, Pett.App. 70a

RULE 6.05

TRIAL OF CIVIL CASES

P™«t.» u.s.c. s.r
the case.

-fc*«i»sM2S5S«S<S?£SSiSSs

ssassasss
Fed.R.Civ.P.; provided, however, that a Mkml°thf?urisdiltton of the Court to proceed. If,
shall not affect the validity of the service^of_process <>r thejurisd c ^
^ ^ actjon pursuant to
deliver a copy of such notice to each such party.

<c)

including trial with or without a jury, and theAmints9shall provide for appeal to the United
presiding district judge (28 U.S.C. Section 636(c)(4)).
(d)
If the parties In any civil case unanimously
United States Magistrate Judge pOreuantto 28 aSg^
^ clerk ,n accordance
communicated
to
the
Clerk
^"^nofacSo?!
any
consent
except in the form
must be
with subsection (c) of this rule). The
and manner, and within the time, prescnbed by this rule.

5SMWATti^^S--assas
reference as measured in part by the extent
mm might be; the extent to
accumulated in the case by the Judge or the magistrate judge,as th
9
duQ regard to
which the magistrate judge(s) may have time avaHablla to de t t th
9 t09lhe magistrate

12/1/09

Appendix J, Pett.App. 71a

fcJ5^sr£tK^t^'==6SgS£!,|:a
vacate the order of reference and restore the case to the calendar of the presiding ju g .

Procedure rdating^o^appeals in civil cases from the District Court to the Court of Appeals, except
that Rules 30, 31(b), and 32, Fed.R.App.P., shall not apply.

without the consent of the parties.

12/1/09

Appendix J, Pett.App. 72a

CHAPTER EIGHT
COURT ANNEXED ARBITRATION
RULE 8.01

ARBITRATION

(a)
It is the purpose of the Court, through adoption and implementation of this rule, to
provide an alternative mechanism for the resolution of civil disputes in accord with 28 U S C
Sections 651-658.
The Chief Judge shall certify those persons who are eligible and qualified to serve
(b)
as arbitrators under this rule. An individual may be certified to serve as an arbitrator under this rule
if admitted to The Florida Bar for at least five (5) years, admitted to practice before this Court, and
determined by the Chief Judge competent to perform the duties of an arbitrator.
An advisory committee or committees comprised of members of the bar in each Division of the
Court, respectively, may be constituted to assist the Chief Judge in screening applicants and aiding
in the formulation and application of standards for selecting arbitrators.
(c)
Each individual certified as an arbitrator shall take the oath or affirmation prescribed
by 28 U.S.C. Section 453 before serving as an arbitrator. Depending upon the availability of funds
from the Administrative Office of the United States Courts, or other appropriate agency, arbitrators
may be compensated for their services in such amounts and in such manner as the Chief Judge
shall specify from time to time. No arbitrator shall charge or accept for services any fee or
reimbursement from any other source. Any member of the bar who is certified and designated as
an arbitrator pursuant to these rules shall not for that reason be disqualified from appearing and
acting as counsel in any other case pending before the Court.

12/1/2009
Appendix J, Pett.App. 73a

RULE 8.02

CASES FOR ARBITRATION

(a)
Any civil action may be referred to arbitration in accordance with this rule if the
parties consent in writing to arbitration, except that referral to arbitration may not occur if.

(b)
consent.

(1)

the action is based on an alleged violation of a right secured by the
Constitution of the United States:

(2)

jurisdiction is based in whole or in part on 28 U.S.C. Section 1343; or

(3)

the relief sought consists of money damages in an amount greater than
$150,000.

No party or attorney can be prejudiced for refusing to participate in arbitration by

12/1/2009
Appendix J, Pett.App. 74a

RULE 8.03

REFERRAL TO ARBITRATION

Within twenty-one (21) days after referral to arbitration, the Court shall select three (3)
certified arbitrators to conduct the arbitration proceedings. Not more than one member or
associate of a firm or association of attorneys shall be appointed to the same panel of ai^lt|'at0^sAny person selected as an arbitrator may be disqualified for bias or prejudice as provided in 28
U.S.C. Section 144, and shall disqualify himself in any action in which he would be required t0 d0
so if he were a justice, judge, or magistrate judge governed by 28 U.S.C. Section 455.

12/1/2009
Appendix J, Pett.App. 75a

RULE 8.04

ARBITRATION HEARING

(a)
Immediately upon selection and designation of the arbitrators pursuant to Rule8.03,
the Clerk shall communicate with the parties and the arbitrators inaneffortto ^certain ajnutua^ly
convenient date for a hearing, and shall then schedule and give notice of the date and time or tn

cause shown.
(b)
At least fourteen (14) days prior to the arbitration heanng eachpartyshafuirnsh
to every other party a list of witnesses, if any, and copies (or photographs) o'allexhibits to be
offered at the hearing. The arbitrators may refuse to consider any witness or exhibit which has not
been so disclosed.
(c)
Individual parties or authorized representatives of corporate parties shall attendthe
arbitration hearing unless excused In advance by the arbitrators for good cause'Shown. TTi
hearing shall be conducted informally; the Federal Rules of Evidence sha I be a guide but shall not
be binding. It is contemplated by the Court that the presentation of testimony shall be kept to a
minimumfand that cases shall be presented to the arbitrators primarily through the statements and
arguments of counsel.
(d)

Any party may have a recording and transcript made of the arbitration hearing at the

party’s expense.

12/1/2009

Appendix J, Pett.App. 76a

RULE 8.05

ARBITRATION AWARD AND JUDGMENT

(a)
The award of the arbitrators shall be filed with the Clerk within fourteen (14) days
following the hearing, and the Clerk shall give immediate notice to the parties The award shall
state the result reached by the arbitrators without necessity of factual findings or legal conclusions.
A majority determination shall control the award.
(b)
At the end of thirty (30) days after the filing of the arbitrator's award the Clerk shall
enter judgment on the award if no timely demand for trial cte novo has been made. If the parties
have previously stipulated in writing that the award shall be final and binding, the Clerk shall enter
judgment on the award when filed.
(c)
Pursuant to 28 U.S.C. Section 657(b), the contents of any arbitration award shall
be sealed and shall remain unknown to any judge assigned to the case —
(1)

Except as necessary for the Court to determine whether to assess costs or
attorney fees under 28 U.S.C. Section 655 or

(2)

Until the District Court has entered final judgment in the action or the action
has been otherwise terminated, at which time the award shall be unsealed.

12/1/2009
Appendix J, Pett.App. 77a

RULE 8.06

TRIAL DE NOVO

(a)
Within thirty (30) days after the filing of the arbitration award with the Clerk, any
party may demand a trial de novo in the District Court. Written notification of such a demand shall
be filed with the Clerk and a copy shall be served by the moving party upon all other parties.
(b)
Upon a demand for a trial de novo the action shall be placed on the calendar of the
Court and treated for all purposes as if it had not been referred to arbitration, and any right of trial
by jury shall be preserved inviolate.
(c)
At the trial de novo the Court shall not admit evidence that there has been an
arbitration proceeding, the nature or amount of the award, or any other matter concerning the
conduct of the arbitration proceeding, except that testimony given at an arbitration hearing may be
used for any purpose otherwise permitted by the Federal Rules of Evidence, or the Federal Rules
of Civil Procedure.
(d)

12/1/2009

No penalty for demanding a trial de novo shall be assessed by the Court.

Appendix J, Pett.App. 78a

M-105827

BANK

ANNUAL PERCENTAGE RATE
(APR) for Purchases
and Cash Advances

Tliis APR will vary with the market based on the Prime Rate.

Paying Interest

We will begin charging interest on purchases and cash advances on the posting date.

Minimum Interest Charge

If you are charged interest, the minimum Interest Charge will be no less than $1.00 for any billing
qrcle in which an Interest Charge is due. Credit lines less than $400 will not receive a minimum
Interest Charge in the first year (Introductory period).

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of
the Consumer Financial Protection Bureau athttps:/www.consumerfinance.gov/learnmore.

23.90%

6
Set-up and Maintenance
Fees

Notice: The Annual Membership Fee will be billed to your account when it is opened and will reduce
iSibaSbleSt'wHI riels' ^
8CC0Unt eStab'iShed m a $30° Credit line’ *>ur
You may still reject this plan, provided that you have not yet used the account or paid a fee after
receiving a billing statement If you do reject the plan, you are not responsible for any fees or charges.

•Annual Membership Fee

$75 First year (Introductory period). $99 thereafter, billed monthly at $8.25.

■Authorized User
Participation Fee

$19 annually (if applicable).

Transaction Fees
• Cash Advance

whi5ieve|eisrgre^r.UCt°iy Peri°d)' Thereafter'ei0ler $5or8%ofthe amount of each advance,

Penalty Fees
■ Late Payment

Up to $35

• Returned Payment

Up to $35

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your account agreement

Appendix K, Pett.App. 79a
l

VISA/MASTERCARD CARDHOLDER AGREEMENT,
DISCLOSURE STATEMENT AND ARBITRATION AGREEMENT

oStaH T$!'-ESPa?u0f4Kl^e^
IMPORTANT NOTICE: Please read the Arbitration Agreement portion of this document for important information about your and our legal rights

under this Agreement.

mmmsmmsmmm
understand

This Fee wiil brasSeiruaCe ™ntK

be imp°Sad f°r feSui^ a - * «• “d "serts

to' Mievettwe^fadfsputebebreen*ihe^;ardhofdeisnCreditOnen|anaknma«fatiS "T®?"* ins“fram °"e °r mre °f W °r if <**
Accountas provided in Z seitiT

Bank has reason

18,1,681 for an advance or any other re(>uest witfl "*!**» T™ Account, or for restricting or terminating the

wherethe ctdl^cceoted'1 OS rdni^in™^ °r Auth?.rize? User

use »«" Cards: d) to make purchases of goods or services at merchant establishments

be for personahjse^nd may notbe usedlbr businesspumoses! ^ may not use ),our Ca^ for any illegal purpose. You further acknowledge that the Card Account will
n7oS® iNal'any

—i. f

°btain TT*1" *™ pUrChases or cash ■*■** Y°» V"«*«• shall have

—•*«

mmmsrnmm
r month.
Appendix K, Pett.App. 80a

' s&aissfi

£Sj~r^£^^nsMris;2r“’”“*>"'»-“”‘“’«*"— 1
i

•ESjgjjKj^^

ssHSS^^

S§lp=pS5SH=HSSSSSS
paidlrl M oS £.newSJSf* 2?" ^

*** *“'"* °" B’e

°f P0S“n& eVen if H’e "aW tatenCe ,ram yppr pre™33 s“ W3a

JS2?iSS! Mk P?c,pal;For W0868 of Rnance Char6e calculation, Credit Limit Increase Fees, Annual Membership Fees, late Payment Charges and other
^f^^^chons, posted as principal, and accrue Rnance Charges^ purS
*’8"d *"

i

Mi^nr^lrnntfo^^' Ifcif°*

^?e-Fo a<^ an a(*ditional Cardholder to the Account after it is opened, an application must be submitted to Credit One Bank The
aPP,ICati0n WiH * required; and (5) Replacement Cartf Fee: ,f y°u ^uest a replacement card, a Replacement Card fL

added^toy^urmS^paymerJ6111 am°Unt ^ ^ ^UP *" SUCh S8niCes'y0U Wi"be notified if a ** for **» service wil1 be U>osed «*if«is required to be

you win not S /SIS anS.

*

*

°f $,0° °r leSS ^ «"• consecutive billin6 ^es’ “* h3'3"33 «■ba funded to zero and

I°Pr plyment5 "is? be„made 1,1 us currency only, drawn on a bank domiciled in the US, through paper or electronic format not to include
rJSmJ;electT,c,?ai1S3Ct,0ns,via Credit One Bank's account at the Federal Reserve Bank. Do not send rash throuS to manTTcreTone BaS “not
»™mS» rc ?hi JS .?Sb 0St ^,?e«au"'e hi00?5'To tbe extent tb3t 3 Payment reduces the pdncipal amount outstanding on your Card Account new credit will be
payment mKtte^sen^to^eadrirplc^nrita?
'2 €3[e,!b3r bays aJler our receipt of the paymentTo insure prompt posting ofpaymerrtSMnt through tbemait yow
SaJS Zlro mtLJ '"d
d 03
^tement and must be received by 5:00 p.m. PT. There will be a delay in posting payments to your Account for

Scrtohr™

suS paym“n7maX^^^

"0tlbel^iablelfofp,b“33'pS'<3^o^ito to process the payment to your ActrountCrediOng of

fo%™m™™s?n“^wetceew“re "** "*eXamini!^^10C°nfi,m t"atilfe "0tpostdated'and0,31 wamaydepositany pbstd3te(1 cbecl(

Appendix K, Pett.App. 81a *C^""

>

'

paymentSmaitedsimilar"otetto

ns, without losing any of our rights under

1SHSH5HSS
and others who may properly receive that information. Howler we are not oWi&ted
proper Power of Attorney is provided, (c) Telephone Monitoring-To be sure thaff inn Sft™
cans between our emptoyees end ear customer are monitoned^y supervfcory X^e^^^

fn^Unt °r ^1 file10 consumer sporting agencies
1 * anyone “"l688 we are re<Iuired to d0 so by law or a

SSSS^»SSsSS

22. SECURITY: This is an unsecured Account, and Credit One Bank retains no .ecurity interest in your real or personal property to secure payment of your Card Account
I must be surrendered
reason. All Cards have an

SBsas^sg^sa
SfcS

^S^SSSa^“^=SSSssS£S

use of the Accounfis reported. All tem^an?condiUons of diis A^eemenfancUhe^appUcatioi^s^Ian apply*to^ny substitute Account!*^' ^ ^ ^ ®v®n^ unauthorized

lsassiiisli?lSH~5ss
ry H-fnif T'

a" increas^ “ *PP»SuJnKSI ItatalnoTaSt llmittc"8 ^ Credi‘b'"<ial' inft>m1ation-Y°“
rease on your Card Account statement For
o on Credit One Bank s procedure for applying for a credit limit increase, contact us at (877) 825-3242.

27. WAIVER OF RIGHTS: If we waive any of our rights under this Agreement, we will not be obligated to do so again.

'

28. CUSTOMER PRIVACY: The privacy policy for Credit One Bank is provided separately in accordance with applicable law.

'
and- ^ere no such laws

Appendix K, Pett.App. 82a

___

’ «X°me“REEMENT: T"6

AS,eem6nt Pravid6d ‘° you wiUl

Aereeme"1

*» enforcement by yoo end os of yoor and oor legal rights

MWR BILUNG RIGHTS - KEEP THIS NOTICE FOR FlITliqp
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement
"***> PS * Ba"k « «—■M' BO* 98872, Las Vegas, NV 89193-8872.
Account infonrtdtion: Your name and account number.
• Dollar amount: The dollar amount of the suspected error
• Description ofproblem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
Within 60 days after the error appeared on your statement
You^n'o^Xy^
you may have to pay the amount in question.

*

y

S at ®77*825'3242-but lf y°u do we are not required to investigate any potential errors and

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things*

Th»CrS ^t0 c°rect

amount in question, or report you as delinquent on that amount

After we finish our investigation, one of two things will happen-

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
with the merchant,

ARBITRATION

Agreement to Arbitrate:
Claims"),

SS/rS

h^oTTJT b/ kT* “T“ wittl you “ claimi"e *•« m such as a

only Claims that relate directly to us a parent wiKnvttKSSl? anS "2 trustee m ^^ptey. Sim,lariy. Claims subject to arbitration include not

. siuSxrs^

common law, constitutional provision, respondeat superior, agency or otheTdoctrine concerning Itebllfty for
5

mirsa'o^deaih^u'alv o®er

Appendix K, Pett.App. 83a

on any allegations of feet,
are made

.K2£r,=

attorney general action^other rep^n^^^'oT^wrwLe ^ ^ ** ^ PerS°n m* PUrSU® ^ Claim in any litigatlon'whett)er« a class action, private

’ Saimfo^elief SU^eCt 10 art)itration ^ ^ are fi,ed byJI0U or us in a sniall claims court, so long as the matter remains In such court and advances only an individual

administrators, and other related materia,, including forma and iLrocdons fcrU&"
American Alteration Association
335 Madison Avenue, Floor 10
New York, NY 10017*4605
Web Site: www.adr.oig

JAMS
1920 Main Street, Suite 300
Irvine, CA 92614-7279
Web Site: www.jamsadr.com

SZS$nr.'X™Sd inVS“Se

the applicable procedures and rules of the arbitration admfeirthatarein effertonthe,S£th«S^il?n v

.vMtone. or. MM

aJ.ltration wiI1 ** conducted under

Costs:
Ita

«d qiMlIiy Ibr. HMMlMrundar

5SSsS®iS3as»BaaK!
SeXt^
requesting in writing a new arbitration before a panel of threeA^i^toRdS^£

aXparty may appeal ^ award <V

r=^nFH"“
Xffi«Z£T'Clalms in art,itraBon'and 81,311 ™‘a">

** *«*

£Z‘Se“'floSS
°r C,hanfi“'?me A8reement- “• “*<>""< - the relationship between ,o:
and us
If any portion of this arbitration ^o^o^ deemed imra^orunenteMWe^tee^eniSnin^^dnssharneveitheles^remalri^ forceaf account'10 an)' °*eru Pe
rson.

© 2013 Credit One Bank, N.A. All rights reserved.
Credit One* and Credit One Bank* are federally registered trademarks.

. Appendix K, Pett.App. 84a

